<html>
<title> - ONGOING HUMAN RIGHTS AND SECURITY VIOLATIONS IN RUSSIAN-OCCUPIED CRIMEA</title>
<body><pre>[Joint House and Senate Hearing, 114 Congress]
[From the U.S. Government Publishing Office]




114th Congress                                                                Printed for the use of the
2nd Session                                                                   Commission on Security and Cooperation in Europe
_______________________________________________________________________________________________________________________________                            

                                                                    


                                          ONGOING HUMAN RIGHTS AND 

                                            SECURITY VIOLATIONS

                                         IN RUSSIAN-OCCUPIED CRIMEA
                                        


                                                          
                                [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






                                           November 10, 2016






                                          Briefing of the
                         Commission on Security and Cooperation in Europe  
_______________________________________________________________________________________________________________________

                                        Washington :2016







                       Commission on Security and Cooperation in Europe
                                         234 Ford House Office Building
                                                   Washington, DC 20515
                                                           202-225-1901
                                                    <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3a5949595f7a575b53561452554f495f145d554c">[email&#160;protected]</a>
                                                    http://www.csce.gov
                                                          @HelsinkiComm
                                                          
                                                          
                                                          

                                       Legislative Branch Commissioners

              HOUSE                                                          SENATE
CHRISTOPHER H. SMITH, New Jersey                                      ROGER WICKER, Mississippi,
          Chairman                                                      Co-Chairman
ALCEE L. HASTINGS, Florida                                            BENJAMIN L. CARDIN. Maryland
ROBERT B. ADERHOLT, Alabama                                           JOHN BOOZMAN, Arkansas
MICHAEL C. BURGESS, Texas                                             RICHARD BURR, North Carolina
STEVE COHEN, Tennessee                                                JEANNE SHAHEEN, New Hampshire
ALAN GRAYSON, Florida                                                 TOM UDALL, New Mexico
RANDY HULTGREN, Illinois                                              SHELDON WHITEHOUSE, Rhode Island
JOSEPH R. PITTS, Pennsylvania
LOUISE McINTOSH SLAUGHTER, 
          New York
                        
          
            
          
          
                                 Executive Branch Commissioners

                                      DEPARTMENT OF STATE
                                    DEPARTMENT OF DEFENSE
                                   DEPARTMENT OF COMMERCE

                                           (II)                                         




ABOUT THE ORGANIZATION FOR SECURITY AND COOPERATION IN EUROPE



    The Helsinki process, formally titled the Conference on Security 
and Cooperation in Europe, traces its origin to the signing of the 
Helsinki Final Act in Finland on August 1, 1975, by the leaders of 33 
European countries, the United States and Canada. As of January 1, 
1995, the Helsinki process was renamed the Organization for Security 
and Cooperation in Europe (OSCE). The membership of the OSCE has 
expanded to 56 participating States, reflecting the breakup of the 
Soviet Union, Czechoslovakia, and Yugoslavia.
    The OSCE Secretariat is in Vienna, Austria, where weekly meetings 
of the participating States' permanent representatives are held. In 
addition, specialized seminars and meetings are convened in various 
locations. Periodic consultations are held among Senior Officials, 
Ministers and Heads of State or Government.
    Although the OSCE continues to engage in standard setting in the 
fields of military security, economic and environmental cooperation, 
and human rights and humanitarian concerns, the Organization is 
primarily focused on initiatives designed to prevent, manage and 
resolve conflict within and among the participating States. The 
Organization deploys numerous missions and field activities located in 
Southeastern and Eastern Europe, the Caucasus, and Central Asia. The 
website of the OSCE is: <www.osce.org>.

ABOUT THE ORGANIZATION FOR SECURITY AND COOPERATION IN EUROPE

    The Commission on Security and Cooperation in Europe, also known as 
the Helsinki Commission, is a U.S. Government agency created in 1976 to 
monitor and encourage compliance by the participating States with their 
OSCE commitments, with a particular emphasis on human rights.
    The Commission consists of nine members from the United States 
Senate, nine members from the House of Representatives, and one member 
each from the Departments of State, Defense and Commerce. The positions 
of Chair and Co-Chair rotate between the Senate and House every two 
years, when a new Congress convenes. A professional staff assists the 
Commissioners in their work.
    In fulfilling its mandate, the Commission gathers and disseminates 
relevant information to the U.S. Congress and the public by convening 
hearings, issuing reports that reflect the views of Members of the 
Commission and/or its staff, and providing details about the activities 
of the Helsinki process and developments in OSCE participating States.
    The Commission also contributes to the formulation and execution of 
U.S. policy regarding the OSCE, including through Member and staff 
participation on U.S. Delegations to OSCE meetings. Members of the 
Commission have regular contact with parliamentarians, government 
officials, representatives of non-governmental organizations, and 
private individuals from participating States. The website of the 
Commission is: <www.csce.gov>.


                              (III)




 
ONGOING HUMAN RIGHTS AND SECURITY VIOLATIONS IN RUSSIAN-OCCUPIED CRIMEA




                           November 10, 2016


                                                                                              Page
                              PARTICIPANTS

    Orest Deychakiwsky, Policy Advisor, Commission on Security and Cooperation in Europe....      1
    Scott Rauland, Policy Advisor, Commission on Security and  Cooperation in Europe .......     14
        Alex Tiersky, Policy Advisor, Commission on Security and Cooperation in Europe .....     17
   Oksana Shulyar, Minister-Counsellor, Embassy of Ukraine to the United States ............      4 
   Taras Berezovets, Founder, Free Crimea Project, Kyiv, Ukraine ...........................      6
   John E. Herbst, Director, Dinu Patriciu Eurasia Center at the 
   Atlantic Council and former U.S. Ambassador to Ukraine ..................................      7
  Paul A. Goble, Editor, Windows on Eurasia, and Professor at The 
   Institute of World Politics .............................................................     10

                                APPENDIX

    Prepared statement of Paul A. Goble ....................................................     27


                                            (IV)





ONGOING HUMAN RIGHTS AND SECURITY VIOLATIONS IN RUSSIAN-OCCUPIED CRIMEA
                              ----------                              

                           NOVEMBER 10, 2016
                           
                           
   
              Commission on Security and Cooperation in Europe                          
                           
                              Washington,DC



    The briefing was held at 2 p.m. in room B-318, Rayburn House Office 
Building, Washington, DC, Orest Deychakiwsky, Policy Advisor, 
Commission on Security and Cooperation in Europe, moderating.
    Panelists present: Orest Deychakiwsky, Policy Advisor, Commission 
on Security and Cooperation in Europe; Scott Rauland, Policy Advisor, 
Commission on Security and Cooperation in Europe; Alex Tiersky, Policy 
Advisor, Commission on Security and Cooperation in Europe; Oksana 
Shulyar, Minister-Counsellor, Embassy of Ukraine to the United States; 
Taras Berezovets, Founder, Free Crimea Project, Kyiv, Ukraine; John E. 
Herbst, Director, Dinu Patriciu Eurasia Center at the Atlantic Council 
and former U.S. Ambassador to Ukraine; and Paul A. Goble, Editor, 
Windows on Eurasia, and Professor at The Institute of World Politics.

    Mr. Deychakiwsky. Good afternoon. On behalf of the Commission 
Chairman, Representative Chris Smith, and Co-chairman Senator Roger 
Wicker, welcome to this Helsinki Commission briefing focusing on the 
human rights, political and security situation in Crimea. My name is 
Orest Deychakiwsky, and I'm a policy advisor here at the Commission 
whose portfolio includes Ukraine.
    We're very pleased to have with us today four truly distinguished 
speakers whom I'll introduce in a few minutes, but first I want to give 
some introductory comments and set the scene a bit, if I may.
    With Russia's ongoing illegal occupation of Crimea and aggression 
in eastern Ukraine--where it continues to direct, arm and finance its 
separatist proxies--Russia continues to flout every single one of the 
core OSCE principles enshrined in the 1975 Helsinki Final Act, 
including territorial integrity, inviolability of borders, sovereignty, 
and respect for human rights and fundamental freedoms. The situation in 
Crimea is bleak, and continues to deteriorate both from a democracy and 
human rights, as well as a security standpoint, and other standpoints 
as well.
    The Russian occupying authorities persistently violate the rights 
of the Crimean people, first and foremost those who are perceived to 
oppose the illegal annexation. The Crimean Tatars have been especially 
targeted, as have been all those Ukrainians who do not remain silent in 
accepting Moscow's rule. Examples abound. Whether it's the banning of 
the Mejlis and persecution of individual Tatar activists or the unjust 
imprisonments of Oleg Sentsov and Oleksandr Kolchenko, Russia's 
demonstrating its contempt for human rights and democratic norms.
    At the same time, the security situation in the Crimean Peninsula 
and surrounding Black Sea region becomes increasingly perilous with the 
militarization of the peninsula. And we'll be hearing more about this, 
including perhaps how the Black Sea region and NATO are responding.
    Now, the international community has repeatedly condemned Russia's 
illegal annexation. Like many in Congress, the Helsinki commissioners 
have been very supportive of sanctions against Russia, including 
Crimean-related sanctions, and in providing assistance to Ukraine to 
help counter Russian aggression and strengthen Ukraine's efforts to 
become a successful democracy. I think it's important, especially now, 
to underscore that Congress' and the Helsinki Commission's strong 
support of Ukraine has been on a bipartisan basis.
    The Commission's also been active on the international front. At 
the OSCE Parliamentary Assembly, for instance, shortly after the 
Russian invasion, our then-Chairman Senator Ben Cardin's resolution 
condemning, and I quote, ``the clear, gross, and uncorrected violation 
of the Helsinki principles by the Russian Federation with respect to 
Ukraine'' passed overwhelmingly over strident Russian objections, and 
similar resolutions have passed in the years since.
    Now a bit of history: If you saw our press release, this briefing 
takes place on the 40th anniversary of the founding of the Ukrainian 
Helsinki Monitoring Group in November of 1976, the largest and most-
repressed of the five Soviet Helsinki groups, and there were some 
affiliated groups as well. And these groups were formed to monitor the 
Soviet Government's compliance with the Helsinki Final Act.
    The Soviet Government, not surprisingly, saw these groups as a 
serious threat. The men and women who participated in these groups were 
persecuted as a result of their courage and commitment, and four 
Ukrainian monitors sacrificed their very lives in the notorious Perm 
Camp #36. And this was as late as 1984 and 1985.
    The members of the Ukrainian Group laid the groundwork for the 
events that were to follow, culminating in Ukraine's freedom and 
independence. And, indeed, Ukraine's independence movement, called 
Rukh, was led by members of the Helsinki Group.
    In the West, there were numerous efforts by governments, 
parliaments, and NGOs to defend the Helsinki monitors. Congress and the 
Helsinki Commission were especially active.
    Just one small example, but one that I hope will resonate with you: 
Thirty-five years ago this month, in November 1981, our Commission held 
a hearing on the fifth anniversary of the Ukrainian Helsinki Group. One 
of the witnesses was someone named Petro Grigorenko, a founding member 
of both the Moscow and Ukrainian Helsinki Groups. A giant in the Soviet 
dissident movement, he had also been a highly decorated veteran, a 
major general in World War II. Yet, he abandoned the comfortable life 
of the Soviet elite and became involved in the struggle for human 
rights. What was his reward? Repression, including nearly five years of 
psychiatric abuse at a Soviet psychiatric hospital. He eventually was 
allowed to the West for medical treatment, and stayed.
    Well, why do I single out General Grigorenko? Because among the 
things he was best known for was his defense of the Crimean Tatar 
people, who had been forcibly exiled to Central Asia in 1944 by Soviet 
dictator Stalin. Tragically, decades after returning to their homeland 
as the USSR was dissolving--late 1980s, early 1990s--and living in an 
independent Ukraine, the Crimean Tatar people again face persecution at 
the hands of Stalin's anti-democratic, imperialistic heirs. And in a 
frightening echo of what General Grigorenko went through, a Crimean 
Tatar leader, Ilmi Umerov, recently was put in a psychiatric clinic for 
three weeks, and others very recently--just last week--have been sent 
for forced psychiatric evaluations for their opposition to Russia's 
occupation.
    Now, as then, the principles and commitments enshrined in the 
Helsinki Final Act are under assault. Forty years later, Ukrainians of 
all ethnic and religious backgrounds continue to defend these 
principles in the face of Moscow's egregious and unrepentant 
violations. And, just as the West did back then, so too now we need to 
keep shining the spotlight on violations taking place today, and 
hopefully this briefing will contribute a little bit to that effort.
    With that, let me introduce our speakers. I'll give shortened bios. 
There are handouts with their full bios that you can pick up outside if 
you haven't already.
    Our first speaker, Oksana Shulyar, is acting DCM, or deputy chief 
of mission, at the Embassy of Ukraine. She holds the class of minister-
counsellor. She assumed the position of political counsellor at their 
embassy in D.C. in September 2015 after serving as deputy director for 
the Foreign Policy Department at the administration of the president of 
Ukraine. She's also worked as a foreign policy advisor to candidate 
Petro Poroshenko in 2014 at the Ukrainian Ministry of Foreign Affairs 
and at the Ukrainian Parliament's European Integration Committee.
    Our second speaker, Taras Berezovets, is the founder of Free 
Crimea, an independent think tank established in 2014, and owner of 
Berta Communications strategic consulting company in Kyiv. He's the 
author of many publications, and appears frequently on various media 
and other forums in Ukraine. Mr. Berezovets has served as a consultant 
for a number of Ukrainian state institutions over the years. Taras was 
born in Kerch in the Crimea.
    Ambassador John Herbst, who's known to many if not all of you, is 
director of the Atlantic Council's Dinu Patriciu Eurasia Center. 
Ambassador Herbst served for 31 years as a Foreign Service officer at 
the State Department in numerous positions and at various embassies, 
many of them dealing with what I'd call our part of the world, Eastern 
Europe and Eurasia. And most notably for our purposes, he was U.S. 
ambassador to Ukraine from 2003 to 2006, so right before, during and 
immediately after the Orange Revolution. Prior to that, he served as 
our ambassador to Uzbekistan, and most recently he served as director 
of the Center for Complex Operations at the National Defense 
University.
    And finally, Paul Goble is editor of Window on Eurasia blog and a 
professor at The Institute of World Politics, a longtime specialist on 
ethnic and religious questions pertaining to Eurasia. Frankly, you 
know, from my perspective, nobody knows more about these issues than 
Paul does. He's held academic positions in Azerbaijan and at two 
universities in Estonia. Throughout his lengthy career, he's served in 
various capacities at the State Department, at the CIA, at the 
International Broadcasting Bureau, at the Voice of America, at RFE/RL, 
and at the Carnegie Endowment for International Peace.
    So, with that, I'm going to turn it over to our first speaker, 
Oksana Shulyar.
    Ms. Shulyar. Thank you very much, Orest. It is truly an honor to 
speak at these premises with such panelists and before such an 
audience.
    First of all, let me start by praising the efforts of the Helsinki 
Commission and of Orest Deychakiwsky, who for many years has 
contributed a lot to the cause of human rights and to advancing the 
issue and cause of human rights in Ukraine.
    As Orest mentioned, we are now observing the 40th anniversary of 
the Ukrainian Helsinki Monitoring Group. And so 40 years and one day 
ago, at a press conference in Moscow, Ukrainian writer and philosopher 
Mykola Rudenko announced about establishment of the Ukrainian Helsinki 
Monitoring Group. In two hours, windows in his Kyiv apartment were 
broken with stones and bricks. He then joked: this is how KGB salutes 
establishment of the Ukrainian Helsinki Group. And it is truly 
inspiring how these brave men and women, writers, philosophers, how 
much they contributed to the cause and how much they helped to bring 
down one of the most evil empires in the world, the Soviet Union, and 
how much they helped to restore the independence of Ukraine.
    Today, it is needless to reiterate that the Russian illegal 
attempted annexation of Crimea has once again violated international 
law and is posing a threat to the human rights, and especially on this 
Ukrainian peninsula. A deliberate policy of the total ban of freedom of 
thought, freedom of speech and expression is being conducted by the 
occupying power. The Russian Federation has continuously demonstrated 
to the international community severe violations of basic rights of 
citizens of Ukraine who live in the temporarily occupied territories of 
Crimea.
    Ukraine has notified Russia on its violation of international 
humanitarian law and Russia's obligation as the occupying power in 
relation to the Crimea and Donbas region. Russia responded that the so-
called peoples of the Crimea have executed their right to self-
determination, and thus accession of the Crimea to the Russian 
Federation is in accordance with international law. In this regard, 
Ukraine stated that the peoples of Crimea are not entitled to self-
determination; that referendum of 17 of March 2014 is a fraud; and 
that, therefore, under international law, the so-called Crimea 
Accession Treaty done in Moscow in March 2014 is null and void, and 
does not create any legal consequences in regard to the territorial 
alterations. Despite obvious differences in positions of two sovereign 
states, Russia rejected suggestion to refer this dispute to an 
international court.
    Nevertheless, Ukraine deems the Autonomous Republic of Crimea as 
the occupied territory of Ukraine. Ukraine condemns in strongest terms 
Russia's attempt to annex the occupied territory, and strongly rejects 
any attempts to legitimize this internationally wrongful act. In 
particular, Ukraine stated that elections of 18 September 2016, which 
have just taken place, to the Russian Parliament held in Crimea are 
illegal, and those elected are not legitimate representatives of people 
inhabiting the peninsula.
    Overall, a few facts to describe a picture of Russian so-called 
authority over Crimea: 11 politically motivated assassinations; 15 
people went missing for their political activities and for their public 
position; at least 30 persons arrested and sentenced for political 
reasons; kidnapping; attacks on media; intimidation; detention; 
interrogations; imprisonment of journalists and activists; searches; 
banning citizens from entering Crimea; restriction in access to 
meetings of the authorities, including the courts; placing pro-
Ukrainian journalists on the so-called list of terrorists of the 
Russian Federation; censorship; the ban of the Mejlis of Crimean 
Tatars, which is the only representative body for these indigenous 
people of Crimea; and continuous pressure on the Crimean Eparchy of the 
Ukrainian Orthodox Church.
    All Crimean inhabitants were de facto forced either to become 
Russian citizens or to leave Crimea. As a result, we have 20,000 
internally displaced persons from Crimea in other Ukrainian regions. 
And I would like to make a note that these people have decided to stay 
in Ukraine. They have moved to other parts of Ukraine--in western 
Ukraine, in central Ukraine, in Kyiv--and they feel solidarity and 
unity with the Ukrainian people, and remain to stay in Ukraine in order 
to come back once Crimea will be de-occupied.
    One hundred of Ukrainian schools in Crimea have been closed. So 
Ukrainians have no longer right or possibility to get education in 
Ukrainian.
    The occupation of Crimea is a crime against Ukraine and against the 
Ukrainian citizens. Today Ukraine again appeals to the international 
community to take urgent measures to protect the right of the people 
living in Crimea.
    In March 2014, the United Nations Office of the High Commissioner 
for Human Rights established human rights monitoring mission in 
Ukraine. It regularly reports and identifies violations--numerous 
violations of human rights in Crimea. And today we once again urge 
that, according to the U.N. Charter, international community's absolute 
priority is to ensure fundamental protection of human rights and human 
freedoms.
    Despite the occupation, residents of Crimea remain Ukrainian 
citizens and are treated as Ukrainians, and the Ukrainian Government 
takes all measures to protect them and to ensure that their rights are 
honored. Therefore, the government of Ukraine is committed to provide 
all possible means.
    We are grateful to 100 nations that in March 2014 have voted for 
the U.N. resolution on Territorial Integrity of Ukraine, not 
recognizing the illegally attempted annexation of Crimea by Russia and 
testifying that Crimea is Ukraine.
    Today, the democratic community of nations has taken action again. 
More than 30 nations have joined in co-sponsorship of the draft 
resolution Situation of Human Rights in the Autonomous Republic of 
Crimea and the City of Sevastopol, Ukraine in the Third Committee of 
the 71st Session of the United Nations. The main goal of the resolution 
is to urge the Russian Federation to ensure full compliance with its 
obligation as an occupying power according to the international law, 
and to ensure safe and unfettered access for international human rights 
mechanisms to the temporarily occupied peninsula to monitor and report 
the situation in accordance with their mandate.
    Crimea is not just a Ukrainian territory. Crimea is 2.5 million 
people suffering from the authoritarian regime, frightened and 
helpless, without any chance to defend their rights, to protest, or to 
be heard.
    Another legal track Ukraine pursues is settlement of dispute under 
the 1982 U.N. Convention on Law of the Sea. Ukraine claims that Russia 
has illegally appropriated Ukraine's sovereign rights in waters 
adjacent to the Crimean Peninsula in the Black and Azov Seas, and 
illegally exploits natural resources of Ukraine's continental shelf.
    Apart from Ukraine's sovereign rights, it is in the interests of 
the government to provide for a possibility for state-owned enterprises 
and private companies to seek remedies for illegally stolen property in 
Crimea. 1998 Ukraine-Russia Bilateral Investment Treaty, one of several 
documents violated by Russia, provides for both investor-to-state and 
state-to-state compulsory jurisdiction of an arbitral tribunal. Ukraine 
has adopted and is promoting a strategy to hold Russia accountable for 
massive theft of property during and after occupation of Crimea. At 
this point of time, there are around eight investor-to-Russia cases 
pending at different stages of arbitration. Among them, two cases are 
filed by the state-owned oil and natural gas company Naftogaz, claiming 
over 15 billion U.S. dollar damages; and biggest state-owned bank, 
Oschadbank, claiming around 700 million U.S. dollars damages.
    Ukraine has decided to pursue a peaceful diplomatic and legal way 
to reintegrate Crimea and to end the ongoing violence in Donbas 
triggered by the Russian aggression. But we need continuous support 
from the international community, and help to Ukraine to carry out its 
internal transformation to become an attractive model for the people 
living in Crimea and Donbas. We believe that a strengthened and 
democratic Ukraine will be the strongest remedy against the Russian 
aggression.
    Thank you.
    Mr. Deychakiwsky. Thank you very much, Oksana.
    And now we'll turn it over to Taras Berezovets. Taras?
    Mr. Berezovets. Thank you. Thank you very much, Orest. Thank you 
very much, everybody. It's a pleasure, always, to be here in D.C., but 
it's not a pleasure to talk about violations of human rights conducted 
by Russian occupation forces in Crimea.
    I've not been to Crimea since February of 2014. Unfortunately, 
since then I have been blacklisted, especially when we launched our 
initiative which is called Free Crimea. And Free Crimea is one of many 
Ukrainian think tanks, one of many Ukrainian initiatives which have 
been launched after illegal annexation of Crimea.
    We are dealing mostly with information about human rights 
violations, militarization of Crimea, what's going on with property 
rights in there. We also deal both with Ukrainian Government and 
Ukrainian society and all IDPs who moved from Crimea.
    According to our official statistics of our government, we have 
more than 50,000 IDPs from Crimea, mainly Ukrainian and Crimean Tatars. 
To compare, we have a figure of nearly 2 million people who escaped 
from Donbas, from Donetsk and Luhansk Oblast. So, to put it bluntly, 
the general figure of IDPs from Crimea is not that big. But since then 
we have a lot of information from peninsula which shows that a lot of 
people would be happy, actually, to leave peninsula because of both 
economic situation, situation of human rights, and situation in many 
different--many different spheres.
    What happened just yesterday, it's one of the examples which shows 
off, ladies and gentlemen, what's going on in Crimea. Just yesterday, 
Russian law enforcement bodies in the city of Sevastopol in south of 
Crimea have arrested three citizens. They are both Ukrainian and 
Russian citizens, apparently, because after annexation of Crimea, 
Russia has assigned citizenship to all 2.5 million Crimeans. So Dmytro 
Shtyblikov, Oleksiy Bessarabov and Volodymyr Dudko, all three of them 
are employees of Ukrainian think tank Nomos, who used to work for many 
years as experts in this sphere; all of them, they are retired military 
officers. So they have been arrested and detained by FSB illegally. 
They have been severely beaten, according to information of even 
Russian independent media. And they have all been accused, all of them, 
they're so-called terrorists. So we expect that the Russian authorities 
would accuse all of them in organization of some terrorist acts 
whatsoever, similar to what happened to the other four Ukrainian 
citizens that have been detained by FSB by the end of August this year, 
just before illegal parliamentary elections to State Duma of Russia, 
which also have been conducted on the territory of Crimea.
    By the way, our think tank, we prepared an independent report on 
illegal actions in Crimea, which I presented to Orest. I have only one 
more copy left, but it's still available in English on the website of 
our Ukrainian Institute for the Future. So just please feel free to 
share it.
    This is just the last example which I will explain to you. Two days 
ago, on the 8th of November, six certain employees of so-called 
Property Fund of Crimea broke into the cathedral of Ukrainian Orthodox 
Church of Kyiv Patriarchate. And these attacks have been done for the 
last nearly three years on Kyiv Patriarchate because Russian 
authorities, they do not recognize the church itself. And they closed 
five out of six cathedrals of Kyiv Orthodox Patriarchate which had been 
operating on the peninsula before occupation.
    Other figures which show off just general problems, they refer also 
to the fact of assigning of Russian citizenship, basically forceful and 
illegal, to 2.5 million Crimeans, which we saw very vividly on a 
criminal case of Oleg Sentsov and Alexander Kolchenko, two prisoners of 
conscience in Russia who have been arrested in May 2014, and both 
sentenced--Sentsov to 20 years of imprisonment and Kolchenko to 18 
years of imprisonment. The problem with them is that Ukrainian Ministry 
of Foreign Affairs negotiating with their Russian colleagues about just 
doing the same procedure, what they've done to the--[inaudible]--
basically they're returned to Crimea, but the Russian occupation--
[inaudible]--Ministry of Justice of Russia said this is completely 
impossible because they said both Kolchenko and Sentsov, they are 
considered as Russian citizens.
    The fact that Sentsov and Kolchenko have been given Russian 
citizenship is based--this is very important--on the testimony of a 
Russian FSB officer in Simferopol, who in custody just put in a 
protocol that Sentsov should be considered as a Russian citizen because 
he was living on the territory of Crimea, and because he did not write 
a letter--so the Russians made quite a stupid judicial procedure. They 
said: unless within one month you write a letter to official Russian 
authorities in which you say you do not want to accept Russian 
citizenship, you will be given it automatically. But because Sentsov 
and Kolchenko, they have been arrested, they literally didn't have any 
chance to write such a sort of letter, Russian Ministry of Justice 
considers them both as Russian citizens. And this has to do with a lot 
of other Ukrainians. Out of 2.5 million people, we have only nearly 
4,000, only, people who kept their Ukrainian citizenship and who 
basically refused to get Russian passports.
    And finally, what's going on with human rights violations, even 
according to the Russian statistics? Since February 2014, Russian local 
authorities, they fixed only 269 cases of violation of human rights. 
But, according to the Tatyana Moskalkova, a Russian ombudsman, she said 
that the number of human rights violations in Crimea has risen up to 75 
percent since then. And according to Ludmila Lubina--she's a local 
Crimean ombudsman--she said that the number of appeals about violations 
of human rights in Crimea in 2014, and then actually Russians took 
control of the peninsula, was 680. But the last year, 2015, they fixed 
4,200 violations of human rights, which is basically seven times more 
than it was a year before. We don't have so far statistics about this 
year, but we believe the general figure would be much, much higher.
    Thank you very much, Orest.
    Mr. Deychakiwsky. Thank you very much for that on-the-ground 
report. Thanks.
    And now I'll turn it over to Ambassador Herbst. John?
    Amb. Herbst. Orest, thank you.
    Russia's seizure of Crimea is a major political and security 
challenge for the West. The political challenge is well understood. And 
we've heard about it already in this panel. Russia's taking of Crimea 
by military force violates international law, their own commitments 
under the Bucharest Memorandum, and numerous other agreements, and a 
serious blow to the post-Cold War order established in Europe. It also 
includes numerous human rights violations, as we've just heard from 
Taras, violations against Crimean Tatars, against the Ukrainian 
Orthodox Church, against any conscious Ukrainian who wants to assert 
that he or she is a Ukrainian citizen, against independent journalists.
    I'm mentioning this or repeating this now because there's also some 
confusion about what's happening in Crimea. And there's confusion about 
the views of Crimeans regarding their takeover by Moscow. Sloppy 
journalism and sloppy scholarship is asserting today that a majority of 
Crimeans in fact want to be part of Russia. There is an article--and I 
will not embarrass the journalist--it was in the Financial Times at the 
end of September, talking about the bridge over the Straits of Kerch, 
which said that the Crimeans are just delighted, despite significant 
statistical--honest statistical evidence to the contrary.
    I had lunch with an academic recently who was doing polls in Crimea 
and asserted the same thing, even admitting that Crimean Tartars are 
underrepresented in those polls, and taking into account my comment 
that, well, don't you think that maybe people who are asked by 
strangers what they think might not give an honest answer in a place 
that's run by the police? But again, these things are reported. And 
they provide a rationale for ignorant politicians to say, ``See? People 
of Crimea are happy to be part of Russia and our policies can be 
adjusted.'' And I just wanted to highlight that so that we understand 
this is a problem, when sloppy professionals point politicians with 
ulterior motives in the wrong direction.
    OK. American policy and western policy more broadly on Crimea, to 
my mind, is sound. It says we do not recognize Russian sovereignty or 
alleged Russian sovereignty there. We sanction those who are 
responsible for the Russian takeover, the military seizure. And we also 
sanction businessmen and others who go there. This last point requires 
a little bit more attention because I read articles about businessmen 
who have interests over there and I don't read articles about them 
being sanctioned. This is an area where people should be paying close 
attention, because if we implement the policy that has been laid down 
we will make sure that Russian-occupied Crimea remains an economic 
backwater. And that's very important.
    Now, I was asked to speak about the military and security aspects 
of Moscow's control of Crimea. And in fact, the one-sentence line is 
that the Russians have turned Crimea into an armed camp. A peninsula 
that was--I won't say it was not--it didn't have arms. It did have the 
Russian navy as well as the Ukrainian navy there. But relatively low-
grade armaments it is now receiving some of the world's most 
sophisticated hardware, if we can believe the press.
    President Putin took a decision well over a year ago to deploy two 
new nuclear-capable systems--the Iskander-M missile, which is a short-
range ballistic missile with a range of, I think, up to 500 kilometers, 
and the Backfire bomber. Ukrainian intelligence has been reporting 
since August that those two weapons systems have been deployed. There's 
also talk of deploying the Iskander-K system ballistic missile, which 
has a range of up to 2,000 kilometers.
    In addition to these nuclear-capable systems, the Russians have put 
at least 24 S-300 SAM systems, very sophisticated set of systems, anti-
aircraft, as well as their Bastion anti-ship missiles. Between these 
two systems, they have coverage over most of the Black Sea. The nuclear 
missiles, even the smaller ones--excuse me--the lower-range ones, the 
Iskander-Ms, would give them the capacity to hit targets in 
southeastern Europe and, of course, across the Black Sea to Turkey.
    All of this in total--referring to the seizure of Crimea by 
military force, the turning of Crimea into an armed camp--has 
significant geopolitical consequences. We've already seen since the 
Kremlin aggression in Ukraine, starting in, what, late February of 
2014, Turkey responding in what I would consider to be a rather passive 
way. Turkey traditionally assumed the role of protectors of the Crimean 
Tartars. And Turkey has largely been silent on this issue, except in 
that six- or seven-month window between the Turkish shoot down of the 
Russian airplane on the Syrian front and Erdogan's almost inexplicable 
apology to Putin for shooting it down in June of this year--an apology 
which is quite uncharacteristic for Turkish politicians.
    In that brief period where Turkey and Putin's Russia were at 
loggerheads, you saw interesting and potential significant coordination 
between the Turkish and Ukrainian navies in the Black Sea. That has 
disappeared in the wake of the new era of good feelings between Ankara 
and Moscow. You also have a NATO ally in the Black Sea, Bulgaria, which 
is less than stalwart in understanding the dangers represented by 
Putin's revisionist policies. So the arming of Crimea has strengthened 
Russia's position in the Black Sea, not just in terms of its military 
hardware and military capacity, but in its efforts to exert influence.
    The question for us is, what should the United States and, more 
broadly, what should NATO be doing? Item one, this addresses 
specifically Crimea but it goes beyond Crimea, the West should do a 
much better job of meeting its Budapest Memorandum commitments by 
providing additional military support to Ukraine. And that additional 
military support for Ukraine should include, at an absolute minimum, 
lethal defensive equipment, anti-tank equipment, such as Javelin, which 
would blunt any further Russian offensive into Ukraine.
    I think we should also do a serious study about providing Ukraine 
with anti-aircraft capacity. Now, Moscow has not used its air force in 
this war against Ukraine, and we want to keep it that way, but making 
them pay a price in hardware and blood for any such use by providing 
anti-aircraft equipment I think is completely legitimate and would 
probably be helpful. In addition, since the struggle in Ukraine, which 
is the front line in stopping Putin's revisionism--a revision designed 
to upend the post-Cold War order in Europe--we need to strengthen 
Ukraine not just to fight the Russians or to withstand Russian 
aggression, but also to reform themselves.
    And while the United States, and the EU, and the various 
international financial institutions have played an important role 
here, it has not been important enough. The assistance we've given is a 
fraction of the assistance that the EU has given to Greece--a country 
of less importance than Ukraine, albeit a member of the EU. George 
Soros said and Larry Summers have said that, in one case, we should be 
providing $50 billion of grant aid, not loans, to Ukraine. In the case 
of Summers, $10 billion to start and see what else might be needed. In 
both cases, as a down payment on our security interests in Ukraine. 
Providing that support, that level of economic assistance, while 
pushing the Ukrainian Government to make the reforms that the Ukrainian 
people want, is the smart play and the right play.
    Three, of a similar kind, we should be strengthening other Black 
Sea powers that do not have NATO's protection. I'm thinking of Georgia 
and Moldova. Four, we need to increase the NATO presence in the Black 
Sea. The Warsaw Summit was a very serious effort to identify and 
respond to the revanchism of Mr. Putin's Kremlin. It laid out a strong 
response in the northeast of the alliance and in the Baltic States and 
Poland, putting battalions in each of those countries. It paid less 
attention to the southeast or the Black Sea area, although it did agree 
to provide a battalion for Romania, which does well understand the 
Kremlin danger.
    We need to do more in terms of working with our other NATO partners 
in the Black Sea. The Turks who are, again, in a very strange place in 
this point in time. With the Bulgarians, they need a certain amount of 
persuasion and a certain amount of buffing up. Part of our effort 
should include greater ship visits into the Black Sea. We're already 
seeing some of that. We need to see more. I think those are the four 
areas where we need to do specific things.
    I would just make one final point; that we have to pay special 
attention to Turkey, a major NATO partner, always strong in the past, 
somewhat ambivalent today, pursuing policies we don't like not just in 
Russia but also to a certain extent in Syria. We need to be able to 
somehow move them in the right direction. And that's going to require a 
great deal of diplomatic effort as well--very important--policies that 
are both wise and strong, something we haven't seen much of over the 
past 15 years.
    Thank you.
    Mr. Deychakiwsky. Thank you very much, John. Thanks for your 
excellent points, and hope they're taken to heart by relevant policy 
and other actors.
    With that, let me turn it over to Paul Goble.
    Mr. Goble. Orest, thank you very much.
    It's terribly important to focus on the specific crimes and actions 
that have been unfortunately visited upon the people of Crimea and the 
people of Ukraine. But it is also terribly important to put those 
actions in a broader context and to recognize the extent to which they 
pose threats not just to Crimeans and Ukrainians but to the United 
States and to the international community.
    And it is terribly important to recognize that when we talk about 
specific cases we not fall into the trap of thinking that if we address 
all the specific cases we've solved the problem, because we are 
confronted with an enemy in the Russian Federation, under Vladimir 
Putin, that is going to be a threat to Ukraine and the West for as long 
as it's in power. And that means that we need to start thinking not 
simply about addressing short-term problems, but about thinking about 
having a long-term strategy.
    The United States, in my view, has as yet, despite all the good 
things it has done, failed to recognize the full extent of Vladimir 
Putin's aggression in Ukraine, and the threats it poses to the 
international system as a whole. It has treated this issue, as so many 
others, as if it can be addressed quickly and easily by talking to 
someone in Moscow and in isolation from these broader concerns--an 
approach that has played precisely into the Kremlin playbook and 
allowed Putin to behave outrageously in more and more places. Because 
we do not have a strategy, what we have are a set of tactics. Indeed, 
in my experience recently, there are very few people in the District of 
Columbia who can define what a strategy is.
    And in the American pursuit of a quick fix to deal with specific 
problems at a conflict on the edge of Europe, we have ignored that we 
are going to be involved in this conflict not for this month and next 
but for a very long time, because Mr. Putin's regime is not--as much as 
I would like it to--going away anytime soon, nor is Russian 
aggressiveness going to disappear. And that means you have to not only 
address particular issues now, but you have to put in place structures 
and policies that address that in the longer term.
    Today--my whole paper's available to you--I'd like to talk about 
three things rather quickly. First, I'd like to point to the three 
challenges to the international system that Putin's aggression in 
Crimea and Ukraine represents. Those three challenges are vastly more 
serious in that they undermine the entire international order that our 
country has played a key role in creating over the last hundred years.
    Second, we have to finally look at ourselves and recognize that we 
have vastly more resources to deal with the Russian threat than we have 
chosen to use, and they are not either do what we do now or increase 
military activity. There are a whole range of things that we have 
chosen not to do, for reasons that are not entirely clear to me. But we 
need to understand that.
    And finally, while one can only welcome the continued statements of 
senior American officials that we will never recognize the forceful 
incorporation of Crimea into the Russian Federation, which was an act 
of illegality, an Anschluss. It is terribly important for us to 
recognize that such declarations by themselves are insufficient to put 
in place a genuine nonrecognition policy. Had American Baltic 
nonrecognition policy beginning in 1940 but limited it to such 
declarations, it would not have led to the recovery of the Baltic 
States of their independence in 1991, their membership in NATO and the 
European Union.
    Too many people in the United States still believe that the current 
crisis is just about Crimea, which was Russian anyway. I completely 
agree with the view that the journalists in this country have done an 
absolutely appalling job. I almost put my car in the ditch driving up 
here today--[laughter]--when I heard one news broadcast on an NPR 
station, as is invariably the case, when the Ukrainians say something, 
they ``claim''; when the Russians say something, they ``say.'' Forgive 
me; it's darn time to turn that around. But never mind. The fact is 
that what is going on in Crimea is a direct attack, not just at Ukraine 
but at the three founding principles of the international system that 
we put in place.
    First, it is a violation of not only all the accords about the end 
of the Soviet Union and the recognition of Ukraine as an independent 
state, but it is a violation of the principle of the international 
order that force will not be used to change borders. And that's not 
something you can--you can be a little bit about. This is simply wrong. 
I am one of those who believed that some of the borders that existed in 
1991 ought to have been talked about. Don't ever do that in your 
career. Bad things will happen to you. [Laughter.] I'm still not 
welcome in certain places because of what I wrote about Karabakh, but 
never mind.
    The point is, we didn't do that. We decided that we would go with 
the borders. We would become the last defenders of Stalin's borders. 
And so we have to live with that. But you cannot have these as 
internationally recognized borders--which we have now done as a 
principle of our international behavior since 1990--and then allow 
someone to trample on it by using military force. And you don't talk 
about whether the country that's being trampled on has engaged in 
enough economic reform. Forgive me, no one asked whether Warsaw had 
gotten its tax policy right in September of 1939. Forgive me, we're 
kidding ourselves by not focusing on that.
    The second challenge that Putin has done is even worse, in my mind. 
Vladimir Putin has moved his aggression into Crimea on the basis of the 
principle that ethnicity is more important than citizenship, that 
Russian ethnicity is more important than anybody else's citizenship. 
The entire basis of the Western alliance in World War II was that that 
was wrong, because Hitler argued the same thing. And it is the basis of 
the United Nations, which is that citizenship is paramount over 
ethnicity. To allow Putin to get away with this is to challenge the 
entire basis of the post-1945 order.
    And third, we are watching Mr. Putin make a mockery of the 
principle of self-determination by allowing him to present what he has 
done, which is open aggression, as somehow covered by the settlement of 
1919. That is allowing him to move in directions which are truly ugly. 
Over the last several years, many in this town and elsewhere have 
argued that since we aren't prepared to use military force to make 
Putin back down, there's not a lot we can do, besides occasionally 
denounce what he does or talk about things at the margin. That's wrong.
    First, it is terribly important always to speak out in defense of 
what is right. And second, even if you rule out the use of military 
force, there are whole lot of--there are a whole lot more arrows in our 
quiver than many people imagined. Let me give you a few. We can lift 
the visas of Russian elites and their children who want to study or 
live abroad. We can put Russian officials on an Interpol list for their 
criminal behavior. We can tie up the foreign holdings of Russian 
officials in courts by raising questions about the illegal gain--their 
illegal acquisition of assets. We can reduce the size of our diplomatic 
presence in Russia, and then force Russia to reduce the size of its 
diplomatic here. We can end Russia's access to the SWIFT program of 
banking settlements. And we can do all these things step-by-step, and 
make it very clear that they will continue to be raised.
    Limiting ourselves to sanctions is in many ways unfortunate because 
this is hitting the Russian people more than hitting the Russian 
regime. And it should be a basis of American policy that our enemy is 
not the Russian people. Our enemy is the criminal regime of Vladimir 
Vladimirovich Putin. And that means you want to hurt him and his 
people, not the Russian people, who are as much victims of this as are 
the people in Ukraine.
    All these things have to be done to deprive Putin of the legitimacy 
which he routinely claims. And that also means that you do not 
constantly fly to his capital to talk to him. If the Russians want to 
say something, let them come to Washington or New York or Geneva. Why 
are our diplomats not only going to Moscow on a regular basis, but 
allowing themselves to be insulted by Putin, making them wait two, 
three, and four hours? The last time somebody thought it was a great 
idea to fly to a totalitarian regime, his name became infamous for the 
rest of time--Neville Chamberlain. It is appalling the way we are 
behaving in that regard.
    Now, one more thing I'd like to say, but let me focus on 
nonrecognition policy, because that's what I spent my life working on--
Baltic nonrecognition policy. And I can tell you, that nonrecognition 
policies articulated by the United States in 1940 and implemented from 
1940 through 1991 set the stage for all the progress that Estonia, 
Latvia, and Lithuania have made. It is their birth certificate. It is a 
model of what can work for dealing with not only Ukraine but all 
countries that live in Moscow's shadow. And it is something that can 
send a message to Moscow of what will happen, why Russia will suffer if 
it violates these principles, and why it will ultimately benefit by the 
integration of Ukraine into the West--including in NATO.
    Nonrecognition policy specified what could and could not be done 
very clearly. There were real laws. There was no nonsense from 1940 to 
1991 about an American government agency showing Estonia, Latvia, and 
Lithuania as being part of the USSR--unlike what has happened since 
2014, where any number of U.S. Government agencies have shown maps 
showing Crimea as part of the Russian Federation. It is not just 
punishing people about what to do--whether you have business there or 
who travels there. It is about creating structures that punish you.
    It is also critical to understand that the Baltic countries were 
subject to the same kind of genocide that Vladimir Putin is conducting 
in Crimea now. Genocide is not the same thing as the Holocaust. The 
Holocaust was a genocide, but genocide is defined in international law 
as the destruction or displacement of a group and its supplanting by 
another. We are watching that happen in Crimea right now. I think we 
ought to say it. And I think we need to create structures and laws that 
make this clear.
    Now, it is terribly important at the same time to remember two 
other things. First, nonrecognition policy never meant that we couldn't 
talk to Moscow in Soviet times. It was a way of putting down a marker 
that would not be challenged even if we did. With respect, we have a 
system now where sanctions will be lifted as part of a conversation 
rather than remaining in place. And second, it is a way of avoiding the 
consequences of a collapse that a lot of us in this room have lived 
with. During the Cold War the Western opposition to Soviet Communism 
was the reflection of an alliance of people committed to democracy and 
people committed to economic freedom. That alliance has collapsed as of 
1991, and it has meant that those of us concerned about democracy and 
freedom have less support.
    Now, why are people opposed to such a policy? Well, there are three 
main objections, none of which withstand examination. First, it is said 
that the United States has not always lived up to its doctrines. Golly 
gee, who has? But that doesn't mean you don't try. Second, it is said 
that Crimea is only part of a country, and therefore nonrecognition 
policy couldn't look the same. No, it wouldn't look exactly the same, 
but it would be based on the same principles. And third, it is 
maintained that Putin isn't Stalin, and that the U.S. shouldn't anger 
him because we have so many concerns in common. That was the exact same 
argument by American diplomats in Moscow who believed that somebody had 
put ground glass in the butter supply. Just wrong.
    Nonrecognition policy was an assertion by the West that what Stalin 
did in 1940 and again in 1944 violated the international order so 
fundamentally that when Estonia, Latvia, Lithuania did recover their 
independence they would be continuing states, not new states. It's a 
fundamental difference. It determines their rights on citizenship law 
and much else. But it also set the stage for having them join Western 
institutions, NATO and the European Union. It is my view that Ukraine 
ought to have been given NATO membership preemptively in 2014 as a way 
of extending the message to the Kremlin: You are getting involved in 
something much bigger than you understand. And nonrecognition policy, 
with the carrot that you could, if you behaved well, get into the EU 
and NATO, generated greater respect for minorities, for economic reform 
in the Baltic countries than would otherwise have been present.
    It seems to me, to conclude, that if we follow in our dealings with 
Ukraine that approach, we will be realizing two slogans that all 
Europeans of good nature have long committed to. The first is, nothing 
about us without us. There should be no talks about Ukraine or Crimea 
without the participation of Ukraine at the table--ever. That, 
unfortunately, has been ignored. And second, the great Polish 
principle, for your freedom and ours, because what we are--what we will 
put in place to--with a nonrecognition policy and a tougher approach to 
Moscow, in defense of the freedom of Ukraine and Crimea, will 
ultimately be a defense of our own freedom and the international order 
that makes possible the things we desire.
    Thank you.
    Mr. Deychakiwsky. Thank you very much, Paul. Much food for thought 
there. Thank you all for your excellent presentations. And why don't we 
turn this over right now--unless any of the panelists have questions or 
comments on anything--to question and answer.
    But what I'm going to do first is allow my colleagues at the 
Helsinki Commission with very relevant portfolios to go first with any 
questions they may have. I'm going to briefly introduce them for those 
who may not know them.
    The first question will be from Scott Rauland, who is the 
Commission's State Department senior advisor since August. His 
responsibilities include Russia. And he's done a lot of things in the 
foreign service, but immediately before coming to the Commission he 
served for two years at our charge at Embassy Minsk. And as we don't 
have an ambassador, that means Scott was our top diplomat at Belarus.
    And my second colleague is Alex Tiersky. Alex was appointed as the 
Commission's global security and political-military affairs advisor in 
May. In that capacity, he has responsibility for a broad portfolio of 
what we call first-dimension, in OSCE lingo, issues throughout the OSCE 
space and beyond. So obviously it's very understandable why this 
security portfolio and Ukraine overlap considerably these days, 
unfortunately.
    So with that, let me turn it over to Scott or Alex, whichever one 
of you goes first. And what I also want to say, after Alex and Scott, 
circumstances beyond our control, there's no standing mics. So you'll 
have to go up to the podium with your questions. If you want, you could 
just make your way over there and line up. And also, when you do, 
identify yourself and please try to keep it relatively brief. So with 
that, we'll turn it over to the question-and-answer session.
    Mr. Rauland. I'd like to thank all the panelists for very thought-
provoking presentations. And I admire your restraint. I know you 
prepared these, I'm sure, days and weeks in advance.
    But my question is directed towards what you can tell us about how 
you see things moving forward given the rather major events that took 
place just a couple days ago here in Washington, D.C. And I know this 
is difficult because, of course, we know who the president-elect is, we 
know very little about who will be stepping in to take over the 
important portfolios, the national security portfolios.
    And specifically, I'd also like you to look not just at U.S. 
policy, but at what we might expect from Russia in reaction to this 
result, in Crimea in particular, in Ukraine as well. Are there 
opportunities here? Are there any that you see at this point? And are 
there pitfalls that we should all be looking for as we move ahead into 
this transition to a new U.S. regime?
    Mr. Deychakiwsky. OK. Oksana, do you want to----
    Ms. Shulyar. Thank you for a very interesting question. Well, first 
of all, I would like--also using this opportunity that we are now in 
one of Congress' buildings, to thank the U.S. Congress, specifically 
the House of Representatives, for recently voting on legislation called 
Stand for Ukraine Act. And now it's been submitted to the Foreign 
Relations Committee at the Senate for consideration.
    And we very much hope that it will be considered and hope that it 
will become a very, very strong signal in support of Ukraine that will 
include several very strong mechanisms, let's say, specifically in 
relation with Crimean recognition, including mechanism of sanctions 
with regards to Crimea. And this legislation, if passed with bipartisan 
support, which Ukraine enjoys in the U.S. Congress, would also serve as 
a guideline, perhaps, a beacon for the new administration, because that 
also expresses the bipartisan support of the American people. And we 
think it would be strong signal.
    And on the other note, I would like to just maybe inform you that 
yesterday President Poroshenko expressed his congratulations to the 
American people on expressing their will. And once again showing that 
America is a very strong democracy. He had a productive meeting with 
the new U.S. ambassador in Ukraine, Marie Yovanovitch. I think there's 
a public statement available online, and it shows some of the belief 
and good faith in the future of U.S.-Ukrainian relations.
    Mr. Deychakiwsky. Taras, I think you wanted----
    Mr. Berezovets. Yes, sure. Thank you very much, Orest.
    Well, we strongly believe that election of President Trump won't 
change the general course of United States foreign policy, especially 
in terms of nonrecognition of occupation of Crimea, and we don't see 
any sort of change of policies in this connection. But, of course, we 
understand that until president-elect, he will be inaugurated in the 
White House, in here, this is something that Vladimir Putin always sees 
as a window of opportunity.
    What does it mean for him? It means literally that until 20th of 
January there is a clear and present danger that Russia would escalate 
its war against Ukraine in Donbas, that it would escalate its war of 
terror in occupied Crimea. We saw it recently, like I said, just 
yesterday with the arrest of these three innocent experts from a think 
tank who have been accused in terrorist attacks which have never been 
committed so far. The same to do with the previous arrest of four 
Ukrainian citizens. One of them, he has been kidnapped from the 
territory of Zaporizhia Oblast, which is neighboring Crimea literally. 
So this is something that Vladimir Putin always uses in his favor, what 
he sees.
    Just explaining what's going on in occupied Crimea in terms of 
general atmosphere, I would say this is something very much similar 
which we might have seen in Soviet time during--Gen. Sec. Leonid 
Brezhnev. Then the power of KGB and law enforcement bodies were 
completely without any sort of borders. And the atmosphere of terror, 
and what we see nowadays especially in Crimea, well, gives a full 
understanding of what Vladimir Putin is trying to build.
    The general situation with violations of human rights on the 
territory of occupied Crimea is even much worse than on other 
territories. For instance, Chechen Republic, where we always saw just 
an escalation of violation of human rights. But even comparing to these 
regions, Crimea seems to be just on the top--unfortunately, it tops the 
list of regions with highest rate of violation of human rights.
    Mr. Deychakiwsky. Thank you, Taras.
    Paul?
    Mr. Goble. It's a matter of historical record that the first 90 
days after an American election there is always going to be a testing 
period. And it's going to consist of two ways: One is going to be a 
charm offensive, and the other is going to be use of force. And we will 
see both, and we will see people overread each.
    But there is something much more important that you need to 
understand, that was the subject of a major article in Nezavisimaya 
Gazeta yesterday, and that is that the upper reaches of the Russian 
Government have finally woken up to the fact that, while they may be 
very pleased with some of the things they heard Donald Trump say during 
the campaign about recognizing Crimea as a part of Russia, about ending 
sanctions, that Mr. Trump's policies, if implemented, would do more 
harm to the Russian Federation than any sanctions regime that has ever 
happened before to it. Mr. Trump has committed to the 
reindustrialization of America. He's committed to destroying many trade 
agreements. He's committed to drilling as much oil as possible in the 
United States, which will send the price of oil down. People are 
talking now about oil prices being at $20 a barrel within a year's 
time. The Russian Federation cannot survive with oil at $20 a barrel.
    And therefore there are, I would suggest, two periods of time that 
we need to worry about. The first is the usual 90 days, but the second 
is six months. If we see actions by the new Trump administration to 
really disorder international trade or start a trade war with China; 
and we see an opening up by releasing regulation--environmental 
regulations and other regulations of oil and gas drilling in the United 
States; and we see, as is likely, a raising of interest rates by the 
Federal Reserve, Russia will be in much worse shape, even if sanctions 
are lifted.
    What that means if you're sitting in Moscow, as the commentators in 
Nezavisimaya suggested, is that the Russian Government may find that 
the person they bet the farm on in this election will end up delivering 
a threat to them far greater than his opponent, because all of these 
consequences will undermine the economic foundation of Putinism. And I 
think the fact that people in the upper reaches of the Russian State 
are thinking in those terms now, tells us that they may think they have 
to act sooner rather than later, or they may not be able to act. And I 
say that not saying that troops are about to march into Kyiv. I'm not 
saying that.
    I'm only saying that the challenges to their economic system that 
Mr. Trump's economic policies suggest are vastly more severe than 
people in the United States are taking seriously yet, and are only 
beginning to be taken seriously by senior Russian economists and 
officials. But if that's true, then it puts Mr. Putin between a rock 
and a hard place because it seems very difficult, at least to me, to 
imagine whatever Mr. Trump does with respect to Crimea that he would 
change his policies on all those other grounds, because that was the 
basis of his campaign.
    And that means that those of us who are concerned with how Russia 
will behave toward its neighbors have got to start paying a whole lot 
more attention to international trade agreements, oil prices, and the 
Federal Reserve interest rate--because those things are probably going 
to drive Kremlin policy more in the first six months or so of the new 
American administration, than whether sanctions are lifted or softened 
or whether there is any declaration on Crimea. And I say that hopeful 
there will be no declaration on Crimea.
    But I think these other things--the West is not yet paying 
attention to the fact that Trump and Russia are not one issue, they are 
a range of issues. And a lot of them work very much against Russia's 
interests as it understands them. And Russia has less cushion now than 
it did 10 years ago. So these things could really bring down the Putin 
regime within six months to a year.
    Amb. Herbst. Paul's response was brilliant, bringing up an issue 
which I'm not sure many people--anyone in this town has been thinking 
about. I'll be more conventional and look at Trump's possible response 
to Russia. If you parse what he said--and I wouldn't actually suggest 
that because I'm not certain what he said will be his policies--but if 
you do, you come to the conclusion that we'll see a distinct softening 
in Washington's approach to Kremlin aggression--aggression which, as 
Paul highlighted, is a direct threat to the international order that we 
have created and thrived in.
    Now, I'm not sure that we will see those sorts of policies from 
Trump, because if you look at the people who are around him and who are 
likely to wind up in major positions, they don't fit that position. 
Whether you talk--now, some of these names have interesting 
associations. But they're basically advocates of a strong policy 
towards Russia, a strong policy for NATO, and recognizing Ukraine 
deserves major support. I'm thinking of people like Newt Gingrich, 
Senator Corker, even Senator Sessions. They're talking now about Steve 
Hadley. These are all folks who'd be very good. Of course, the vice 
president-elect has very sound views, very strong views on these 
questions.
    So I think that what we've heard in the campaign maybe will not 
wind up being the policies. But just to come back to Paul's insight, it 
is true that probably the most effective thing that the West has done 
vis-a-vis the Kremlin over the past couple of years was the made-in-
America shale gas revolution. That, rather than Saudi Arabia, drove 
down global hydrocarbon prices. And, yes, thank you.
    Mr. Deychakiwsky. OK. Very thought-provoking and interesting. Thank 
you.
    Alex, please.
    Mr. Tiersky. Thanks, Orest. I'll be brief. For the purposes of 
discussion, I'll target my question to Ambassador Herbst.
    First of all, thanks to all the presenters for your extraordinary 
compelling interventions. Given this time of transition, we seem to be 
in a time where basic principles are at least up for discussion. And in 
that context, I would like you to be very explicit about why the Black 
Sea matters as a strategic space for us and for NATO. I would like you 
to be very explicit about that. And I would also ask you how confident 
you are that the additional deployments in resources that you call for 
might actually be undertaken in the coming months.
    Secondly, to the extent that those additional deployments do occur, 
the counter argument has been floated that these types of additional 
deployments are likely to be escalatory as opposed to deterrent, that 
they could potentially lead to unintended accidents or incidents that 
could lead to conflict. Could you give us your perspective on that?
    Thank you.
    Amb. Herbst. It's absolutely true that the Kremlin aggression 
against Ukraine is part of a broader approach which is meant to 
undermine the order we've created in Europe, including the weakening if 
not the dismantling of NATO and the EU. If you understand that, and you 
if you understand that the security that NATO has provided to Europe 
for now almost 70 years has been essential to work order, not just 
European order, and world prosperity--because when countries are 
fighting each other they are not producing wealth--then you understand 
that we have a vital interest in maintaining the integrity of NATO in 
order to maintain stability in Europe and prosperity globally.
    Therefore, the Black Sea is important because the Black Sea is an 
area where the Kremlin is currently pushing forward. And we have to 
make it clear to them that pushing forward will come at a great cost. 
Of course, they can escalate, just as they can escalate in the Baltic 
States. The decision taken at Warsaw to send a well-armed battalion to 
the Baltic States would not beat a Russian invasion, if they chose to 
invade. What it would do is impose on Russia the prospect of a war with 
the United States for its aggression in the Baltic States. The same 
logic applies in the Black Sea.
    I think Putin is a risk taker. I don't think he's a lunatic. And I 
think he understands that the United States is not a country he wants 
to be at war with. I heard recently--not in a classified briefing--but 
an off-the-record briefing elsewhere in this town to a small group, 
that Putin believes that Obama does not understand or like great power 
politics. That's the conclusion I came to on having spent two days with 
President Obama--excuse me--Senator Obama in 2005 in Ukraine. And he 
thinks he's weak.
    And I think his perception--Putin's perception of not just that 
Obama's weak, but that European leaders are weak, is a major factor 
when he decides to go to war in Ukraine and to commit serious 
provocations in the Baltic States. If he's confronted with leadership 
he thinks is not weak, that is willing to use the vast resources that 
the United States has vis-a-vis Russia, he would be more cautious. And 
that's our reason for going into the Black Sea, and to establishing a 
clear line--you can't draw in the water, a line you can see, but you 
can offer counter force.
    Mr. Goble. Could I put two footnotes to that, please? The first is, 
it ought to be remembered in this room in particular that one of the 
things that Donald Trump said about Ukraine doesn't get quoted as much 
as his solicitous attitude toward Putin, is that it's his belief that 
Putin acted the way he did in Ukraine because of a perception that the 
President of the United States was weak, and that if, in his 
perception, the President of the United States is not weak, he would 
not have acted the same way.
    The second is, the Black Sea is a geographic nexus of a whole bunch 
of things we're concerned about. One of the great tragedies of this 
city in particular, but this country more generally, is that we no 
longer study geography or look at maps. But if you look at a map which 
has the Black Sea in the middle of it, as opposed to the edge, which is 
the way it's usually displayed in this city, you will realize that the 
Black Sea determines what happens in Central Asia, what China can and 
cannot do in Central Asia, what happens to the Middle East, what 
happens not only to Turkey but to Greece and the Balkans.
    And there's a tendency to treat this as an isolated thing because 
the maps that people in this city operate under always have the Black 
Sea at the edge. I spent a lot of time in the Baltic States in the 
early 1990s. And one of the great things that happened was that when 
you got to the Baltic countries in 1990s, all the maps they had on 
their walls showed Estonia, Latvia, Lithuania, at the extreme left edge 
of the map, with this huge place of Russia. By 10 years later, they had 
a map of the world with Estonia, Latvia, and Lithuania at the extreme 
right edge of the map--[laughter]--linked to Europe, and this large 
entity, pink on those maps, called the Russian Federation wasn't there.
    And some of us spent a great deal of time explaining that if you're 
going to think about your position in the world, you got to look at 
maps that allow you to look in all directions. It tells you a lot that 
you need to know, that within three miles of this place, at an American 
military base, there's a large map in one of the lecture rooms that 
still shows the Union of Soviet Social Republics in it. And you would 
think that that would have been done away with. But it's in some 
people's hearts, apparently, entirely too much. [Laughter.]
    Mr. Deychakiwsky. OK. Now we'll open it up to questions from the 
audience. But please come to the podium, to the mic, it helps the 
transcribers. Do we have any takers? And please identify yourself.
    Questioner. My name is Nikolay Vorobiov, a Ukrainian political 
journalist. I travel back and forth between the two countries, so I am 
aware of what's happening here in the United States and Ukraine, 
including on the front lines. Thanks very much for your view, for your 
voice about Ukraine, and standing for Ukraine and especially for 
Crimea. And actually, I have a couple questions.
    Of course, the first one will be a political one about the Trump 
inner circle. And if you know Mr. Carter Page, he traveled to Moscow 
several times. And he's originally--[inaudible]. So he criticized the 
Obama administration over the sanctions against Russia, and he has 
stressed so-called Crimea. So what do you think about his position in 
the future in Trump's circle?
    And the second question is what we can do about the prisoners, 
Crimean prisoners, who were kidnapped either on the territory of Crimea 
or Ukraine. How we can bring them back to Ukraine as we together, with 
the West, we succeeded with Savchenko, with her release? What can we do 
over Kolchenko, Sentsov, and other prisoners?
    Thank you very much.
    Mr. Deychakiwsky. Does anybody want to respond to either of those 
questions?
    Amb. Herbst. I'll take the first.
    Mr. Deychakiwsky. OK.
    Amb. Herbst. And we don't know who's going to be in the Trump 
administration. We know we get reports in the press and sometimes 
privately.
    Carter Page clearly has had some association with the Trump 
campaign. How much, it's hard to tell. And how influential he will be, 
if he'll have any position in a Trump administration, we still can't 
say. But it's clear his instincts are very favorably inclined to 
Russian policies, as defined right now by the Kremlin.
    Mr. Berezovets. I believe some people involved in this issue don't 
understand until they then do so. Well, what is Vladimir Putin doing? 
He's not actually trying to find his own place in history. He really 
wants to restore Soviet Union. Soviet Union, in a sense, well, it 
existed like an empire of evil, as it was described by President Ronald 
Reagan. And the biggest problem about this is this is not only Mr. 
Putin's idea; this is the idea of the majority of the Russian people--
84 percent of people supporting policies of Vladimir Putin. This is not 
from science fiction. This is absolutely true, and this is the biggest 
problem of Russia, and this is the biggest problem of this regime, 
because they have complete full support from Russian citizens.
    And Mr. Putin now has his political prisoners, like the regime of 
Leonid Brezhnev once had. So they have their war nowadays, as they had 
in Afghanistan. Remember, it was 10 years, and what it finished with. 
And still, Vladimir Putin is seeking for now a sort of confrontation 
with United States and NATO.
    And I believe the biggest problem which the administration of 
Donald Trump might have is the underestimation of how far Vladimir 
Putin's expansion might go to. If we are talking about here which 
countries he might go to, it's not only Kazakhstan, it's not only 
Belarus. We should also consider as an option a country like Estonia, 
for instance, with two Russian-speaking cities, Kohtla-Jarve and Narva, 
where the Russian-speaking population is more than 90 percent--90 
percent in each of them. And if you're considering if this is something 
absolutely impossible, I think you should go back to 2014 and consider 
as an option the occupation of Crimea, which at that point should have 
been considered absolutely impossible as well.
    Ms. Shulyar. Well, Nikolay, thank you for the questions. Just two 
brief points.
    The issue of prisoners, hostages, is a part of Minsk Agreement, and 
it's an ongoing process. And it's a part of the security component of 
Minsk. And it is very important, really. Thank you for highlighting 
this issue. And it's very important for other partners--United States, 
the European Union, other nations who are involved in watching and 
coordinating and in different extents involved in this process--to 
really continue putting pressure on Russia to make Russia comply with 
Minsk, because this is one of the issues.
    And you're right, there are many like Nadiya Savchenko. Again, 
Nadiya from last year was released from Russian captivity. However, 
still many people remain, both in Donbas, kept in cellars in inhuman 
conditions, and in Russian prisons, and undergoing tortures and being 
subject to major violations of human rights. So it's a really sound 
issue, and we cannot take it off the agenda.
    I cannot comment on the other issue. But everyone has had the 
chance to look at the platforms of the candidates, which were public, 
and which were approved when the candidates became nominees of the 
parties. And looking into the Republican national platform, it actually 
is pretty strong. It has very strong language on Russia and has very 
supporting language on Ukraine. So, once again, I think it's a good 
sign, and it can signal a possible future supportive position on 
Ukraine.
    Mr. Deychakiwsky. Thanks.
    Paul?
    Mr. Goble. I think the most important thing that can be done for 
the political prisoners is to give them faces. Stalin and Hitler's 
observations that one person is a tragedy, a million people is a 
statistic, works very much so right now. Every time you can make 
someone with a--give them a face, that's why Savchenko was--there was 
an international focus on her as an individual. We did that on a few 
cases, not nearly enough, but there's important things tactically to 
use the individual as the way of getting the focus, talking about 
statistics, talking about how many there are. Yes, that's true, but if 
you want to mobilize people, you mobilize them with somebody who has a 
face. That's the first thing.
    The second thing, with respect to Mr. Putin's goals and the amount 
of support he has, three quick thoughts. The Russians have a wonderful 
expression in their language, khitrun--clever, but not especially 
intelligent. I think Putin falls in that category. He's very clever, 
but he's not very bright. The fact is that he couldn't--that the USSR 
is not his goal, because the USSR would gut his regime overnight, 
because the old basis of the Soviet regime was state ownership of 
property. And what he wants is private ownership by a tiny 1 percent of 
the elite. So going back to the Soviet Union is not what he wants.
    What he wants to do is something very much worse, which is to 
create a Russian nationalist empire ruling by force and violence over 
all non-Russians and over all ethnic Russians too. That's not the same 
thing. It's also terribly important to recognize that if you live in a 
police state, answering a pollster is not necessarily going to--you're 
going to be careful what you say. And we have lots of evidence that 
there are lots of Russians who are not terribly thrilled by their 
government's policies in various ways. Are those people a majority? No. 
I would guess that opposition to the war in Ukraine and Crimea is 
probably about 15 percent. Opposition to the war in Syria is probably 
twice that.
    When body bags start coming home, people stop being enthusiastic 
about military campaigns. And when people realize--as you see in the 
local press across the Russian Federation--we don't have schools 
because they're spending money in Crimea, we don't have hospitals, we 
don't have cancer care because they're spending money on military 
operations in Syria. The Russian Government has ended the supply of the 
kind of cancer drug that's keeping me alive, OK? And what that means is 
that people are going to die in large numbers. When it hits that, you 
suddenly discover people are not nearly as enthusiastic for Putin's 
regime. We need to instead of assuming that the Russian people are on 
Putin's side, to try to go after getting the support of the Russian 
people against Putin.
    I believe most Russians don't want a country that would be ruled by 
a fascist pig like Vladimir Putin. I believe that. It's why I get up 
every morning at 4:00 to read the press from that part of the world. I 
believe that. And I think that the Russian people deserve a better 
shake than they've been given. Have they made some terrible mistakes? 
Yes. But I'm an American and I know about making terrible mistakes. 
Recent events provide certain evidence of that. [Laughter.] Having said 
that, you've got to understand that this 86 percent is a meaningless 
number.
    Does Putin have majority support for what he does? Yes. Right now, 
he does. But that doesn't mean he has unanimous support. And we need to 
reach out to those people who are in those critical minorities rather 
than assuming Putin's already got them, because I don't believe that 
for a minute. And I certainly don't think it's a matter of standing--
from the point of view of the United States--that we should ever 
suggest that people are enthusiastic for a totalitarian-aspiring 
dictator.
    Mr. Deychakiwsky. Thanks, Paul. You know, when you mentioned 
putting a face on individuals, tying it back and looking at some of the 
old timers in the audience, veterans of the 1980s movement, like Cathy 
Cosman and Bob Hand--colleagues and former colleagues--that's what we 
tried to do, and I think with some degree of success, with those 
Helsinki monitors that I talked about in my introduction.
    But anyhow, do we have any more questions? Please.
    Questioner. Anstasia Popova, Russian political activist, the chief 
of staff and political aide to Mr. Ilya Ponomarev, who was the only MP 
in the previous parliament to vote against the annexation of Crimea.
    So I have two questions. The first one is regarding recent Duma 
elections in Russia. The elections were conducted also in the territory 
of occupied Crimea. My question is that fact that the recognition of 
current Russian province means the recognition of Crimea occupation for 
those countries who are willing to work with current Russian 
parliament.
    And the second question is on sanctions. Don't you think that the 
sanctions should be more widely imposed on Putin's government and 
Putin's officials, because he very easily reimbursed those officials 
under the sanctions with new positions in the government, and their 
families still can enjoy a good Western education and good Western 
resource, like Miami. Lots of Russians have families and assets in the 
U.S. So why not impose sanctions, say, on all Putin's authorities, all 
the people who are in government, all the United Russia Party? When you 
stop being in the United Russia Party, the sanctions are lifted from 
you and your family. So just an idea to top it off.
    Thank you.
    Mr. Deychakiwsky. OK. Paul?
    Mr. Goble. One quick thing. Your question about the illegitimate 
election from Russian-occupied Crimea is exactly why I make my point 
that you need a real, formal nonrecognition policy. Between 1940 and 
1991, the question repeatedly came up: How can the United States 
Government deal with the USSR's Supreme Soviet? Because there were 
representatives of the Supreme Soviet from Estonia, Latvia and 
Lithuania. And the position of the U.S. Government consistently over 
that period was that that was an illegitimate act. You need to have 
that in place so that officials will know what to say every time. So I 
completely agree.
    Questioner. Thank you.
    Amb. Herbst. In a sense, Paul just foreshadowed my answer to your 
first question. I think it's quite possible to acknowledge that you 
work with and you accept that the Russian parliament is--I hesitate to 
use the word ``legitimate'' because we know that the elections are not 
necessarily wonderful, but nonetheless represents the Russian country 
to the extent that it can in these circumstances without recognizing 
that the Crimean portion of the parliament has any legitimacy 
whatsoever. So I think that's possible to do.
    Regarding sanctions, I certainly have been among those who have 
been calling for more sanctions on Russia for its aggression in 
Ukraine. Certainly we could do more on sanctions on individuals, 
although I think that simply sanctioning them is a problem--sanctioning 
them economically is a problem because they could always be reimbursed. 
But if we were to stop permitting visas for them and their families to 
go to the West, that's great.
    Or, if we're unwilling to do that, if we simply make one part of 
the work of our own intelligence agencies to collect all the 
information on the elite Russian family members who are living in the 
West and enjoying the life in the West and publish it in a way that the 
Russian people will see it, I think that would also be a very useful 
activity. And, in fact, we should be working with organizations----
    Mr. Goble. Yes.
    Amb. Herbst. ----that you represent to do things like that.
    Mr. Berezovets. Thank you for the question.
    Well, of course I believe the matter of sanctions is still on the 
table. And we saw recently what is more effective about all the 
sanctions: it's more personal sanctions. And of course, sanctions 
against commercial companies, for instance, just the recent case with 
German company Siemens, which was cooperating with the Russian 
Government on supplying energy stations on the territory of occupied 
Crimea, and after that those sanctions have been imposed on the Czech 
company Skoda, one of its divisions, Siemens just rejected to supply 
these--to the energy plants, excuse me, on the territory of Crimea. So 
they just broke off this contract with the government of Russian 
Federation.
    If we are talking about these illegal elections which have been 
conducted on the territory of Crimea, I mean, these elections to the 
State Duma directly in five constituencies, there was a decision made 
by Ukrainian Verkhovna Rada which does not recognize the Russian State 
Duma of 7th session as a whole--not only these particular MPs which 
have been elected on the territory of Crimea, but State Duma as a 
whole--because not only five constituencies, so they have not only five 
MPs, but as well Crimean voters, they voted for another 225 MPs which 
have been elected according to the proportional system. So this is our 
particular decision, and Verkhovna Rada addressed the parliaments of 
all other countries, and the United States as well, and they asked for 
just doing the same decision. But this would be completely in the 
independent decisions made by any national parliament.
    Ms. Shulyar. Just two notes.
    The United States has made strong statements regarding the 
elections in Crimea. It was a statement by Vice President Biden and by 
the State Department not recognizing representatives elected from 
Crimea. Also, Mustafa Dzhemilev, who is the leader of the Crimean Tatar 
people and special representative of the president, was basically 
questioning the whole legitimacy of Russian Duma if it is sort of 
infected with the representatives who have been elected illegally. So 
there is, of course, a question.
    Regarding sanctions--they do work. They keep Russia engaged in a 
dialogue. They keep Russia on the table. And it has been proven that 
it's a durable mechanism. So we expect that.
    Mr. Deychakiwsky. Thanks, Oksana.
    Now a question from Cathy Cosman, please.
    Questioner. Hi. I guess I can speak both as a former Helsinki 
Commission member, and I'm also now working with another commission, 
the Commission on International Religious Freedom.
    Certainly I agree with Paul about Putin's annexation, or attempted 
annexation of Crimea based on ethnic grounds, but I think it was also 
on religious grounds. I mean, he specifically cited it as the place 
where Prince Vladimir or Volodymyr was baptized. So I think he's trying 
to build not only a Russkiy Mir, a Russian world, but also an Orthodox-
based world, which has important implications also for the Balkans--and 
I believe some recent events have shown that--as well as, of course, 
major portions of Ukraine, Belarus, et cetera, and possibly Kazakhstan. 
So that's one thing.
    Also, as far as the indigenous nationalities and/or religions of 
Crimea, there are at least three that have very good claim, which I 
believe unfortunately Ukraine did not recognize their request for that 
status at a time when it would have been more important, namely the 
Crimean Tatars, the Karaim, and there's another small Jewish group that 
has lived in Crimea for a very long time. I believe now it might be 
useful to grant them indigenous status and along with what that means 
under U.N. obligations.
    And finally, to hearken back to the old Helsinki Commission days, I 
recall not only did we translate all the documents and publish all the 
documents of all the Soviet-era Helsinki groups and hold hearings with 
various members, to Paul's point about personalizing individual 
stories, but we also held a hearing with Aishe Seyitmuratova, former 
imprisoned woman Crimean Tatar activist. So I think it would be great 
if various groups in this town would do something similar, not only for 
Crimean Tatars of course, but I think they quite clearly are bearing 
the major brunt of Russian threat, intimidation, and worse.
    Mr. Deychakiwsky. Anybody want to comment on that? Paul.
    Mr. Goble. Could I just take one thing? I think that Mr. Putin is--
his understanding of what Russians are and what Russia is is one of the 
subjects that we don't explore very deeply. I think that he's not very 
clear as to what the boundaries are between ethnicity, religion, and 
statehood. And the latest upsurge of absurdity with this Russian 
rossiska natsia, which is a contradiction in terms if one understands 
anything about ethnicity, shows that it's very difficult to talk about 
what the relationship is.
    Clearly, he'll use religion, as Stalin did, if that serves his 
purpose. And given that he's got a KGB officer as patriarch, why not? I 
mean, Kirill will do what Kirill is told to do, and has become nothing 
more than an adjunct of the Putin regime.
    So I think--I agree that religion is part of this, but it's part of 
it in terms of this undefined Russianness. Putin has never given--
that's one of the things that's interesting. We use the Russian world--
Russkiy Mir--all the time, but nobody can give you a definition that 
very many people agree to. Is it people who speak Russian? Is it people 
who identify as Russian? Is it people who don't identify as Russian, 
but that you think are Russian? You know, there are a whole bunch of 
definitions out there, and Orthodoxy is one of the things. But it's 
only one, and it comes in and goes away.
    Clearly, Putin has total contempt for everybody else. He's just 
stolen a Ukrainian figure and put the statue up in Moscow, which has, 
as far as I can tell, had only one good consequence, which is the best 
joke I've heard to come out of Moscow in the last six months. It is 
said, now that the statute of Prince Vladimir has gone up in Red 
Square, that Red Square now has three Vladimirs: one who stands, the 
statue; one who lies, Vladimir Lenin; and one who sits and watches all 
of this, Vladimir Putin. [Laughter.]
    Mr. Deychakiwsky. All right, thank you. Anybody else want to 
comment on that? OK.
    Mr. Berezovets. Vladimir Vovochka is one of most popular heroes of 
Russian anecdotes since Soviet times, so I'll just--I think this one is 
quite popular not only in Moscow as well, but hopefully in Washington.
    As for the persecution of religious communities, I would absolutely 
agree with your question because it's not about the nationality. It's 
not about religion itself. But we should also pay very much attention 
to the fact that, in Crimea before the occupation, there was a huge 
Protestant community, huge; I mean, more than 200,000 people who were 
either Jehovah's Witnesses or Baptists or so on. And we have quite a 
big community of Kyiv Orthodox Patriarchate, 25,000 people, and these 
people are experiencing the biggest problems. Like I said, five out of 
six cathedrals of Kyiv Orthodox Patriarchate have been closed. The same 
to do with local Protestant community. The majority of ministers, they 
have been ethnic Ukrainian. They have been banned from visiting Crimea, 
and so Russia literally sent the ministers from Russia, like 
Yekaterinburg oblast, Kazakhstan and others, just replaced the 
Ukrainian ministers. And these people experience huge problems with 
premises because some of their churches have been also closed. And some 
Protestant churches are experiencing huge pressure from Russian law 
enforcement bodies like FSB.
    Mr. Deychakiwsky. Thanks. Are there any other questions? We only 
have time for one more, at most. OK. Going once, twice, three times. 
OK.
    Well, with that, I think we'll conclude. Thank you all for 
attending. I hope you enjoy the long weekend, and you were patient in 
not getting a head start on it like many have. [Laughter.] And thank 
you, speakers, for your truly interesting, informative, insightful, 
thoughtful presentations.
    And most of you may know this, but if not, we always put up 
transcripts--unofficial transcripts. It'll be up on our website. 
Because tomorrow's not a working day, it should be up on Monday. And 
our website is www.CSCE--for Commission on Security and Cooperation in 
Europe--.gov; CSCE.gov. Thank you all very much.
    Amb. Herbst. Thanks.
    Mr. Berezovets. Thank you.
    [Whereupon, at 3:45 p.m., the briefing ended.]

                              A P P E N D I X

    =======================================================================

                   PREPARED STATEMENT OF PAUL GOBLE
                 
   NEEDED NOW: A LONG-TERM POLICY TO COUNTER PUTIN'S ACTIONS IN UKRAINE              




    The United States has yet to recognize the full extent of Vladimir 
Putin's aggression in Ukraine and the threats it poses to the 
international system. It has treated the issue as if it can be dealt 
with quickly and in isolation from these broader concerns, an approach 
that has allowed the Kremlin leader running room to cause trouble 
elsewhere. And in its pursuit of a quick fix to end a conflict on the 
edge of Europe, Washington has ignored the need to craft a long-term 
policy for Ukraine not only in support of that country but also as a 
way of supporting others that may face Russian aggression in the 
future.
    This afternoon, I would like to address each of these three issues: 
the three challenges to the international system that Putin's 
aggression in Ukraine represent, the failure by the US to recognize 
that it has far more resources than denunciations and sanctions to 
compel Russia to return to the norms of international law, and one 
example from the American diplomatic playbook--American non-recognition 
policy regarding the Soviet occupation of the three Baltic countries--
that can and should be put in place as soon as possible.

Why Putin's Actions in Ukraine are Such a Threat to the International 
System

    Many in the US believe even now that the current crisis is ``just 
about Crimea, which was Russian anyway''--and that isn't true either, 
given that Stalin deported the Crimean Tatars from there in 1944, 
prevented their return, and supported the introduction of ethnic 
Russians in their place--as all too many in the West are doing. It is 
critically important to understand just what is at stake and why 
Russia's actions in Crimea represent the gravest threat to the rules of 
the game that the United States has taken the lead in establishing and 
maintaining since the end of World War II.
    There are three reasons for what will seem to many a far too 
sweeping judgment, reasons that lie in the history of the area and of 
international decisions and that are to be found as well in the 
statements of Vladimir Putin and other Russian leaders during the lead 
up to what can only be described as the Anschluss of Crimea.
    First, Putin has violated the basic foundation of the international 
system by redrawing borders and transferring the territory of one 
country into another. He and his supporters claim that they are doing 
no more than the United States did in Yugoslavia, but that is simply 
false. The United States did not organize the transfer of Kosovo to 
Albania. Instead, what we are seeing is naked aggression, covered by a 
trumped up ``referendum'' and a massive propaganda effort in Russia and 
the West.
    There is one aspect of Putin's argument, however, that does deserve 
attention although it is not compelling under the circumstances. As few 
in the West have been prepared to acknowledge, the borders of the 
republics in the USSR were drawn by Stalin not to solve ethnic problems 
but to exacerbate them. In every case, including most famously Karabakh 
in Azerbaijan but also Crimea and much of eastern Ukraine, Stalin drew 
the borders so there would always be a local minority nationality whose 
members would do Moscow's bidding against the local majority. That had 
two benefits for the center. On the one hand, it meant that inter-
ethnic tensions in the Soviet Union were primarily among non-Russian 
groups rather than between Russians and non-Russians, a far more 
explosive mix. And on the other hand, it justified the kind of 
repressive system that Stalin imposed. Indeed, it meant that the USSR 
could continue to exist only with such repression. As I wrote in 1986, 
Mikhail Gorbachev was likely going to discover that a liberal Russia 
might be possible, but a liberal Soviet Union was a contradiction in 
terms. When the last Soviet leader liberalized in the hopes of getting 
that country's economy to expand, the USSR fell into pieces.
    Those borders might have been changed by negotiation. Indeed, as 
few recognize, republic borders within the USSR had been changed more 
than 200 times, with land and people being transferred from one 
republic to another. However, in 1991 and 1992, the United States 
decided that these lines must not be changed by negotiation or 
violence. The rest of the world went along with the idea. The reason 
for that was the fear that the dismemberment of the Russian Federation, 
a country that is more than a fifth non-Russian, would exacerbate the 
problem of control of nuclear weapons and could lead to, in Secretary 
James Baker's memorable phrase, ``a nuclear Yugoslavia.''
    For more than 20 years, this view has guided American and Western 
policy. The most prominent example of this was the insistence that 
Armenia end its occupation of Azerbaijani lands and return them to 
Baku's sovereignty. So far that has not happened. But it is also the 
case that our decision to accept Stalin's borders as eternal did not 
remove the tensions that he introduced as a kind of poison pill should 
his empire ever come apart. Putin's move into Ukraine's Crimea is an 
indication of just how strong those tensions remain.
    Second, and related to this, Vladimir Putin has done something that 
overturns not just the 1991 but the 1945 settlement as well. He has 
argued that ethnicity is more important than citizenship, a reversal of 
the hierarchy that the United Nations is predicated on and a position 
that has the potential to undermine many members of the international 
community. While some may see this as nothing more than a commitment to 
the right of nations to national self-determination, the Kremlin 
leader's approach suffers from a fatal flaw, a defect that unless 
denounced and countered could lead the heads of other states to take 
similar and equally dangerous steps. At the very least, Putin's ideas 
will lead to massive instability in a large part of Eurasia.
    Put in simplest terms, Putin has insisted that ethnic Russians 
living beyond the borders of the Russian Federation, in this case in 
Ukraine, have the right to self-determination. Putin has made his 
career by denying that right to nations within the borders of the 
Russian Federation, most famously the Chechens against whom he launched 
and has conducted a brutal campaign that has cost tens of thousands of 
lives. Consequently, what Putin has done is to say that in Eurasia, 
ethnic Russians have rights that other peoples do not, a hyper-
nationalist, even racist view that will bleed back into Russian society 
and also spark greater nationalism among the non-Russians both in the 
non-Russian post-Soviet states and in the Russian Federation as well.
    By his actions, Putin has already guaranteed that no Ukrainian 
state and no Ukrainians will be sympathetic to Russia ever again. 
Instead, they will view Moscow as a threat. As many people have pointed 
out since the occupation of Crimea, Putin has done something no 
Ukrainian leader has ever achieved: he has united Ukrainians and united 
them around an anti-Russian agenda. Indeed, Ukraine now joins Poland 
and the Baltic countries as victims of Soviet and Russian actions and 
will do everything it can, as those countries have done, to escape from 
the Russian orbit. Some Ukrainians may be suborned or intimidated into 
saying otherwise, all the more so because some Western countries, 
including our own, will insist on that. But the underlying geo-
psychology has shifted in the region against Russia because of Russian 
action.
    And third, Putin's annexation of Crimea has been accompanied by the 
most sweeping crackdown against civil society in the Russian Federation 
since the end of the Cold War. News outlets have been harassed and 
suppressed, and opposition figures have been threatened. Putin himself 
has talked about the existence of ``national traitors'' and ``a fifth 
column'' within Russia, terms that to many Russian ears are not very 
far removed from the Stalin-era term ``enemies of the people.'' Indeed, 
some of Putin's more rabid supporters are already drawing that 
conclusion: xenophobia in Russia is at an all-time high, attacks on 
ethnic and religious minorities are increasing, and many Russian 
democrats-and we should not forget that they are numerous and our 
allies-are invoking the words of Pastor Niemoller, fearful that what 
Putin is doing now will spread to ever more groups, including ominously 
Jews in that country.
    Many in the West have self-confidently assured themselves that this 
is not a return to the ugly past and that the Internet will block 
Putin's efforts. But that may be whistling in the dark. Only one in 
five Russian homes has a computer, and far fewer have links to the 
World Wide Web. If Russians can sign on only at work, the ability of 
the authorities to shut Russians off from the rest of the world is 
still far greater than one would like. And that allows messages to be 
sent to the Russian people by the state-controlled media that are truly 
disturbing, including the recent suggestion that Russian forces could 
incinerate the United States in a nuclear exchange if Washington does 
not

There are More Arrows in Our Quiver than We Imagine

    Over the last two years, many have argued that since we cannot 
force Putin to back down on Crimea, we should not speak and act against 
what he has done. That is wrong. On the one hand, we have a moral 
obligation and a geopolitical interest in speaking out clearly as to 
why what he has done will not be tolerated. And on the other, we need 
to recognize that the use of military force having been ruled out, 
there are more arrows in our quiver than just denunciations and 
sanctions. Indeed, the latter are far from the best way to achieve our 
goals not only because there is sanction fatigue that makes it likely 
they will be lifted eventually even if Moscow does nothing--a fact of 
life that Putin understands perfectly. And in some respects they 
distract from the kinds of actions we can and should take to impose 
direct costs on Putin and his entourage rather than on the Russian 
people as a whole. Indeed, it should always be our policy to stress 
that we have no fight with the Russian people; we have one only with 
the current criminal occupant of the Kremlin.
    Below I discuss one policy in particular with regard to Ukraine and 
Putin's illegal annexation of the Ukrainian peninsula of Crimea. But 
here I would just like to list some of the other mechanisms we should 
be employing or at least considering as means of putting pressure on 
Putin. This is just a list and it is far from complete, but it is 
something we should keep in mind for the longer term.
    We can lift visas of Russian elites and their children who want to 
travel abroad. We can put Russian officials on an Interpol watch list 
for their criminal behavior. We can tie up the foreign holdings of 
senior Russian officials in the courts by raising questions about the 
provenance of the funds used to pay for them. We can end Russia's 
access to the SWIFT system of banking settlements. We can reduce the 
size of our diplomatic presence in Russia and then force Russia to 
reduce its personnel in the United States. We can stop sending senior 
officials to negotiate in Moscow: if Russia has something to say to us, 
let it send its officials in this direction. And we can suspend various 
exchanges when they involve members of Putin's entourage or other near-
elite groups.
    All these things and others besides have the following purpose: 
They call attention to the illegality of Putin's action and serve 
notice that we will not be doing business as usual with him until he 
changes and that he is not legitimate in a fundamental way. For all 
their criticism of the West, Putin and his cohort are desperate to be 
recognised as equal ``partners'' of Western leaders. That will hurt him 
and his standing with Russians far more than the broad-gage sanctions 
we have imposed.

Non-Recognition Policy as Model for the US on the Crimean Anschluss

    Estonia, Latvia and Lithuania have been supportive of Ukraine in a 
variety of ways since the Maidan; but their most important role in that 
regard may be as a model of what works and what doesn't for countries 
that live in the shadow of Moscow's realm and of what the West should 
do, what Kyiv should assume, and what Moscow should expect. Those three 
things-- the power of non-recognition policy, the critical importance 
of NATO membership, and the fact that Moscow will ultimately benefit 
from Ukraine's eventual integration in Europe just as it has benefitted 
from the integration of the Baltic countries already--are my subject 
here.
    The US Department of State has declared that Washington will never 
recognize Russia's annexation of Crimea, but such declarations, 
important as they are, need to be given real content to ensure that no 
part of the government, intentionally or otherwise, takes steps that 
undermine that policy.
    In short, what is needed now is a new and formal non-recognition 
policy. That is all the more important now given continuing Russian 
meddling in Ukraine and elsewhere in the former Soviet space.
    Given all that has happened since Moscow's seizure and annexation 
of Crimea, it may seem to some that any such call has been overtaken by 
events. But in fact, continuing Russian aggression in Ukraine and 
elsewhere in the former Soviet space make it even more important.
    The immediate danger of not having such a clearly defined and 
articulated policy was highlighted when the Voice of America put up on 
its website--and then fortunately took down--a map showing Crimea not 
as an internationally recognized part of Ukraine but as part of the 
Russian Federation whose government under Vladimir Putin has engineered 
its annexation by force and the threat of force.
    But the larger dangers are even greater. Since at least 1932, it 
will be recalled, the United States has maintained as a matter of 
principle that it will not recognize changes in international borders 
achieved by the use of force unless or until they are sanctioned 
international agreement. That doctrine was enunciated by Henry L. 
Stimson, the US secretary of state at the time, in response to Japan's 
seizure of China's Manchuria province and subsequent creation of the 
puppet state of Manchukuo.
    While the US has not always adhered to this doctrine has not always 
been followed, it has never denounced or disowned it. And in one case, 
its articulation and maintenance helped right a terrible wrong and 
contributed to a most positive outcome.
    The most forceful expression of the Stimson Doctrine was US non-
recognition policy regarding the Soviet seizure of Estonia, Latvia, and 
Lithuania in 1940 under the terms of the secret protocols of the 
Molotov-Ribbentrop Pact between Hitler and Stalin.
    On July 23, 1940, US Undersecretary of State Sumner Wells declared 
that the Baltic countries had been ``deliberately annihilated by one of 
their more powerful neighbors'' and that the US would continue to stand 
by its principle in their defense ``because of the conviction of the 
American people that unless the doctrine in which these principles are 
inherent once again governs the relations between nations, the rule of 
reason, of justice and of law--in other words, the basis of modern 
civilization itself--cannot be preserved.''
    That declaration was given content by a policy that the United 
States followed until 1991 when Estonia, Latvia and Lithuania escaped 
from Soviet occupation and recovered their de facto independence, a 
policy that included among other things, provisions that the US would 
maintain ties with the diplomatic representatives of the pre-1940 
Baltic governments and that the Baltic flags would continue to fly at 
the State Department, that no map produced by the United States 
government would show the Baltic states as a legitimate part of the 
USSR but would carry the disclaimer that the US did not recognize their 
forcible incorporation, and that no senior US official would visit the 
Baltic countries while they were under Soviet occupation.
    It is important to remember what such policies did not mean. 
Neither the Stimson Doctrine nor Baltic Non-Recognition Policy called 
for American military action to liberate occupied territories, but both 
provided enormous encouragement to the peoples of these occupied areas 
that they would at some point once again be free and thus reflected the 
principles and values of the American people.
    Why shouldn't such a policy be announced now? There are three main 
objections, none of which withstands examination. The first is that the 
US has not always lived up to its doctrines either in its own actions 
or in its willingness to denounce the use of force to change borders. 
Washington did not issue such a policy after the Soviet invasion of 
Georgia in 2008, for example; why should it do so now? But arguing that 
past mistakes should be repeated just because they were made once is 
hardly compelling.
    Second, it is said that Crimea is only part of a country and 
therefore a non-recognition policy regarding it couldn't look exactly 
like Baltic non-recognition policy. That is true. A new non-recognition 
policy would not include maintaining ties with any pre-occupation 
government but it could keep senior American officials from visiting 
the peninsula and include continuing US recognition of Ukrainian 
passports of the residents of that peninsula, much as the US did in the 
case of holders of pre-1940 Baltic passports. Arguing that you can't 
get everything and therefore should do nothing, a suggestion made all 
too often of late, isn't very compelling either.
    And third, it is maintained that Putin isn't Stalin and that the US 
shouldn't anger him because we have so many concerns in common. 
Tragically, some US officials have even insisted that Putin shouldn't 
take anything we say or do about Ukraine ``personally.'' That is 
absurd. Putin is the aggressor in Crimea and Ukraine more generally. If 
we make him uncomfortable, we are only doing the minimum to live up to 
our principles.
    Moreover, despite what Moscow suggests and some of its supporters 
in the West say, some future Russian leader or even Putin himself will 
cooperate with us when he or they see it is in their interest. US non-
recognition policy regarding the Baltic countries did not prevent the 
US and Stalin's USSR from becoming allies against Hitler or the US and 
later Soviet leaders from cooperating. Again, the objections fall away.
    It is thus time for a new non-recognition policy so that at a 
minimum no one will ever see a map of Ukraine put out by the US 
government that shows part of that country belonging to another.
    In the 1990s, experts and politicians in Tallinn, Riga and Vilnius 
debated whether it was more important to gain membership in NATO or to 
join the European Union. In the event they were able to do both. But 
since Vladimir Putin's campaign of aggression against Ukraine began, it 
is clear that the former membership is more important than the latter. 
After all, one can't be a liberal free market country if one is not a 
country.
    Since Moscow's annexation of Crimea and its continuing subversion 
of other parts of Ukraine, many have asked whether one or another of 
the Baltic countries might be Vladimir Putin's next target, given that 
his strategic goal is clearly the breaking apart of Europe and the 
United States and discrediting or even destroying NATO.
    That lies behind the question, ``Are you prepared to die for 
Narva?'' a reference to the predominantly ethnic Russian city on 
Estonia's eastern border, a city some have suggested Putin might seek 
to occupy temporarily or permanently and thus a possible flashpoint in 
a post-Ukraine world.
    Andres Kasekamp, a political scientist at the University of Tartu, 
argues in an essay for the Estonian Foreign Policy Institute that there 
are compelling reasons to think that Narva will not be Putin's next 
target, reasons that reflect how different Estonia is from Ukraine 
(evi.ee/wp-content/uploads/2015/05/EVI-mottepaber21--mai15.pdf).
    Although Russia has engaged in expanded military activity in three 
Baltic Sea region and although ``at first glance there might be some 
superficial similarities'' between Ukraine and NATO, Kasekamp points 
out, there are a large number of ``clearly more significant'' 
differences between the two.
    Estonia, like her two Baltic neighbors, is a member of NATO and the 
EU, thus any action against them would have ``immeasurably graver 
consequences. Moreover, ``the success of the Crimean operation depended 
on surprise, the existence of Russian bases on Ukrainian territory and 
the defection of Ukrainian officers, and ``a unique post-revolutionary 
situation'' in Ukraine.
    Moreover, Moscow was able to exploit a situation in which ``the 
border with Russia in eastern Ukraine was lengthy, porous, and weakly 
guarded.'' None of those things is true in the Estonian case, Kasekamp 
says. And Estonia not only has ``a state capacity to respond 
immediately'' to any Russian challenge but a commitment based on 
experiences that it must ``always offer military resistance.''
    Additionally and importantly, the Estonian political analyst 
argues, ``Hybrid war is not something new for the Baltic states. They 
have already experienced elements of hybrid war--cyberattacks, economic 
pressure, disinformation campaigns. Even the Soviet-sponsored failed 
Communist insurrection of 1924 in Estonia had many common features with 
events in 2014, as did the Soviet annexation in 1940.''
    No Russian move against Estonia would allow Russia ``the 
deniability of direct military involvement'' it has exploited in the 
case of Ukraine. And ``there is no historical territorial bone of 
contention'' like Crimea. ``Narva has always indisputably belonged to 
Estonia,'' Kasekamp points out. And ``even Putin understands that 
Estonia . . . is a completely distinct nation,'' something he does not 
believe Ukraine to be.
    But the crux of arguments that Putin might move against Estonia or 
her Baltic neighbors, especially Latvia, involves the ethnic factor. 
``Putin has justified aggression against Ukraine with the need to 
`protect' Russian speakers'' and pointed to the better economic 
conditions in Russia as compared to Ukraine.
    Neither of these factors works for Moscow in the Estonian case, 
Kasekamp points out. Few Russian speakers in Estonia, even those who 
support Moscow's occupation of Crimea, have any interest in becoming 
part of Russia themselves. They know how much better off they are in an 
EU country than are the Russians in Ivangorod and Pskov, two extremely 
poor areas.
    Instead of asking the Russian speakers of Estonia about how they 
feel about Crimea, it would be far more instructive, Kasekamp says, to 
ask ``whether they would prefer rubes to euros . . . the Russian health 
care system to the Estonian one . . . [or giving up] the right to 
freely travel and work within the EU.''
    ``There is a sharp contrast between Estonian and Russian-speakers 
on support for NATO and perception of a threat from Moscow,'' he 
acknowledges, but he points out that ``there is little difference'' 
between the two groups ``regarding the will to defend their country.''
    After Estonia recovered its independence in 1991, many believed 
that the ethnic Russian minority there would be integrated over time, 
that ``Soviet nostalgia would fade with the passing of the older 
generation.'' That has not happened as quickly and thoroughly as such 
people had expected.
    In part, that is because ``Russia has instrumentalized its 
`compatriots' in order to under societal integration and to maintain a 
sense of grievance and marginalization,'' an effort that reflects 
Moscow's use of Russian television in order to ensure that ``most 
Estonians and Russophones live in separate information spaces.''
    But that is not the irresistible force that many assume, Kasekamp 
says, noting that ``the Baltic states were among those who proposed 
that the EU take countermeasures'' And Estonia itself has ``decided to 
fund a new Russian language TV channel-- not to provide counter-
propaganda but to strengthen the identity of the local community.''
    Vladimir Putin has pursued the policies he has in Ukraine in order 
to block Kyiv from joining Europe, but his policy is short-sighted in 
the extreme because Europe has been the main force working for the just 
treatment of ethnic Russians in the Baltic countries and thus the 
integration of Ukraine into Europe will benefit both ethnic Russians 
living there and Russia itself, despite what some in both places may 
currently believe.
    On the one hand, Konstaantin Ranks, a Latvian who lives in Siberia, 
argues, Europe has exercised a powerfully restraining influence on 
anti-Russian nationalism. And on the other, the EU has made relations 
between the Baltic countries and Russia far better and far more 
beneficial than would otherwise be the case (slon.ru/world/baltiyskie--
kamni--na--ukrainskom--puti-1051018.xhtml).
    Consequently, an article which begins as a warning to ethnic 
Russians in Ukraine not to believe the promises of Ukrainian opposition 
leaders that ``in principle they are not against Russians but only 
against the regime in Russia,'' concludes that the best possible 
outcome for them would be Ukraine's integration in Europe rather than 
its subordination to Moscow.
    Ranks starts by noting that Russian speakers in the Baltic 
countries--and he focuses on Latvia almost exclusively--fear that 
ethnic Russians in Ukraine may suffer some of the same problems they 
have had because they were misled by the promises of Baltic leaders and 
believe they've done as well as they have only because Europe has 
forced the Baltic leaders to restrain their nationalist impulses.
    Latvia, Ranks suggests, ``is a very good example for assessing the 
situation in Ukraine for several reasons.'' The two countries have 
``much in common historically.'' They were victims of Molotov-
Ribbentrop, they fought against Soviet power in World War II and after, 
and although both ``had played a big role in the success'' of the 
Bolshevik revolution, they each had at the time of the recovery of 
independent enough people ``who had preserved the habits of life in 
market conditions.''
    Obviously, there were important differences as well, he continues. 
The size and ethnic balance of the two were very different. And unlike 
Ukraine, Latvia had a far more recent experience of independence to 
look back to and revive, and it had the experience of the departure of 
an entire ethnic community, the Baltic Germans in 1938, who had played 
a disproportionate role in Latvian life prior to that time.
    The Latvian drive for the recovery of independence at the end of 
Soviet times also is instructive for ethnic Russians in Ukraine, Ranks 
argues. Not only did the Latvians create ``parallel'' state 
institutions at that time as the Ukrainians are doing now, but they 
told the ethnic Russians there that they would be treated equally after 
independence.
    That reinforced the desire of many Russians to move to Latvia as 
their way to Europe, an attitude that continues, it should be said, and 
it led many ethnic Russians to discount statements of Latvian 
nationalists about them and to back Latvian independence. The same 
thing appears to be happening in Ukraine now, Ranks says.
    After Latvia became independent, he continues, the situation 
changed dramatically. Latvia's citizenship law, which was based on 
succession from the pre-war republic rather than ethnicity as such 
worked against ethnic Russians, a large share of whom had moved there 
in Soviet times. As a result, many ethnic Russians--about a quarter of 
the population--became non-citizens and suffered as a result.
    ``The ethnic Russian believes not in law but in justice,'' Ranks 
says, and ethnic Russians in Latvia responded by leaving--150,000 have 
done so--many back to the Russian Federation and others like many 
Latvians to Europe, and others have organized to call attention to 
their plight and press Riga to change its approach.
    Both the European Union and NATO required Riga to commit to the 
simplification of naturalization procedures, although Ranks says that 
despite Latvia's admission to both Russian speakers in Latvia continue 
to have problems. But nevertheless, he writes, ``Europe was and remains 
the single hope for the Russian-language diaspora.''
    At present, there is ``almost no exodus of Russian speakers'' from 
Latvia to Russia, Ranks notes, ``because life in Latvia is better,'' 
although he argues that many young Russian speakers in Latvia are upset 
that ``instead of uniting for the achievement of common goals, the 
communities [of Latvians and ethnic Russians there] exist as it were in 
parallel worlds.''
    What should ethnic Russians in Ukraine take from the Latvian case. 
First of all, they need to remember, Ranks says, that ``nationalist 
ideas can be much more deeply rooted in the consciousness of Ukrainian 
elites than it might appear at first glance'' and that their commitment 
to civic identities may be less than many ethnic Russians want to 
believe.
    Second, they and others need to understand that any dramatic rise 
in ethnic Ukrainian nationalism will not only lead to the exodus of 
``several million'' ethnic Russians from Ukraine but also undermine the 
chances for ``the flourishing of democratic ideas'' in Russia by 
heightening ``suspiciousness and a desire for revenge'' against 
Ukraine.
    And third, the ethnic Russians in Ukraine and Russians in Russia as 
well, Ranks suggests, need to see that the spread of European values in 
Ukrainian society is ``the strongest medicine against nationalism which 
like everywhere else''--and he implies this includes Russia as well--
pushes people ``toward conservative religious-ethnic values.''
    ``The ideas of tolerance and respect for the rights of ethnic 
minorities,'' Ranks concludes, ``will assist both the European 
integration of Ukraine itself and the gradual liberalization of Russian 
public life by destroying the siege psychology'' that exists in both 
places. A more powerful argument for Ukrainian inclusion in Europe can 
hardly be imagined be it in Ukraine itself, in the Russian Federation, 
or in EU capitals.
    These are three lessons the Baltic experience offers to the West, 
Kyiv and Moscow: none of them should be ignored.
 



  

            This is an official publication of the Commission on
                    Security and Cooperation in Europe.

                  <SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

                  This publication is intended to document
                  developments and trends in participating
                  States of the Organization for Security
                     and Cooperation in Europe (OSCE).

                  <SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

           All Commission publications may be freely reproduced,
            in any form, with appropriate credit. The Commission
            encourages the widest possible dissemination of its
                               publications.

                  <SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

                      www.csce.gov       @HelsinkiComm

                 The Commission's Web site provides access
                 to the latest press releases and reports,
                as well as hearings and briefings. Using the
         Commission's electronic subscription service, readers are
            able to receive press releases, articles, and other
          materials by topic or countries of particular interest.

                          Please subscribe today.
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
